<html>
<title> - THE TRUMP ADMINISTRATION'S AFGHANISTAN POLICY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


             THE TRUMP ADMINISTRATION'S AFGHANISTAN POLICY

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                           September 19, 2019
                               __________

                           Serial No. 116-66
                               __________

        Printed for the use of the Committee on Foreign Affairs

  
               [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                  
                  
       Available:  http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.govinfo.gov
                       
                       
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
37-846PDF                 WASHINGTON : 2020                       
                       
                       

                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey		     CHRISTOPHER H. SMITH, New Jersey
GERALD E. CONNOLLY, Virginia	     STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida	     JOE WILSON, South Carolina
KAREN BASS, California		     SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts	     TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island	     ADAM KINZINGER, Illinois
AMI BERA, California		     LEE ZELDIN, New York
JOAQUIN CASTRO, Texas		     JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada		     ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York	     BRIAN MAST, Florida
TED LIEU, California		     FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania	     BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLIPS, Minnesota	     JOHN CURTIS, Utah
ILHAN OMAR, Minnesota		     KEN BUCK, Colorado
COLIN ALLRED, Texas		     RON WRIGHT, Texas
ANDY LEVIN, Michigan		     GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia	     TIM BURCHETT, Tennessee	
CHRISSY HOULAHAN, Pennsylvania	     GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey	     STEVE WATKINS, Kansas
DAVID TRONE, Maryland		     MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas                                    
                                                                                                            
                    Jason Steinbaum, Staff Director

               Brendan Shields, Republican Staff Director




                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Wells, The Honorable Alice G., Acting Assistant Secretary, Bureau 
  of South and Central Asian Affairs, U.S. Department of State...     7
Freeman, Ms. Karen, Assistant to the Administrator, Office of 
  Afghanistan and Pakistan Affairs, United States Agency for 
  International Development......................................    13
Cunningham, The Honorable James B., Nonresident Senior Fellow, 
  South Asia Center, Atlantic Council............................    55
Miller, Ms. Laurel, Program Director, Asia, Crisis Group, Former 
  State Department Acting Special Representative for Afghanistan 
  and Pakistan...................................................    59
Joscelyn, Mr. Thomas, Senior Fellow, Foundation for Defense of 
  Democracies, Senior Editor, FDD's Long War Journal.............    71

        STATEMENT FOR THE RECORD SUBMITTED BY A COMMITTEE MEMBER

Statement for the record submitted from Representative Yoho......    23

                                APPENDIX

Hearing Notice...................................................    90
Hearing Minutes..................................................    91
Hearing Attendance...............................................    92

       STATEMENT FOR THE RECORD SUBMITTED FROM A COMMITTEE MEMBER

Statement for the record submitted from Representative Connolly..    93

             ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD

Article: June 3, 2019, How US ''good guys'' wiped out an Afgan 
  Family submitted for the record from Representative Omar.......    95

            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD

Responses to questons submitted for the record from Chairman 
  Engel..........................................................   101
Responses to questons submitted for the record from 
  Representative Omar............................................   104
Responses to questons submitted for the record from 
  Representative Allred..........................................   115

 
             THE TRUMP ADMINISTRATION'S AFGHANISTAN POLICY

                      Thursday, September 19, 2019

                        House of Representatives

                      Committee on Foreign Affairs

                                     Washington, DC

    The committee met, pursuant to notice, at 10 a.m., in room 
2172 Rayburn House Office Building, Hon. Eliot Engel (chairman 
of the committee) presiding.
    Chairman Engel. The committee will come to order.
    Without objection, all members will have 5 days to submit 
statements, extraneous material, and questions for the record, 
subject to the length limitation in the rules.
    Ambassador Wells, Ms. Freeman, welcome. Welcome to members 
of the public and the press as well, as we are glad to have our 
friends from C-SPAN with us today as well.
    We meet this morning so the committee can conduct oversight 
of the Trump Administration's policy toward Afghanistan and I 
will now recognize myself for an opening statement.
    For months we have been attempting to get some visibility 
into the ongoing peace negotiations without success. We all 
want peace. We all want the fighting in Afghanistan to end.
    But Congress needs to know what a potential deal looks 
like. Members on both sides need the chance to ask questions 
and offer views, and in the last few weeks we have seen the 
Afghan reconciliation process go off the rails in a spectacular 
fashion.
    We learned from a Presidential tweet that the 
Administration was planning to host the Taliban at Camp David 
the same week that we marked the anniversary of 9/11.
    We learned that the President upended that arrangement and 
we learned that the peace deal, evidently, is dead. If the 
reporting is accurate, the President's desire to get the credit 
and look like a deal maker got the better of him again and now 
months and months of diplomatic efforts seems to be thrown out 
the window.
    As the committee that oversees American foreign policy we 
understandably had a lot of questions about this diplomatic 
effort and the Administration's refusal to provide us and the 
American people answers prompted me a week ago to subpoena our 
top negotiator, Ambassador Khalilzad, to testify today.
    Just to be clear, I do not take subpoenas lightly and I 
would not have issued this one had we not sent three letters 
inviting him and asking Secretary Pompeo at a hearing to send 
him.
    We simply could not wait any longer, and after I issued 
that subpoena I spoke with Secretary Pompeo. At the State 
Department's request he offered to send an official from the 
Bureau of South and Central Asian Affairs to testify and for 
Ambassador Khalilzad to brief myself and Mr. McCaul in a 
classified setting.
    I said I would consider accommodation but only if the 
Ambassador briefed every member of this committee, Democrats 
and Republicans, in a classified setting, the same courtesy 
that was afforded to the members of the Senate Foreign 
Relations Committee.
    Anything less than that was a nonstarter for me and for Mr. 
McCaul. I will let him speak for himself. But we were eye to 
eye.
    We saw this just the same way. We were defending the 
integrity of the legislative process and the integrity of our 
committee.
    Last evening after a few days of negotiations, the State 
Department finally agreed to this compromise and I withdrew the 
subpoena on Ambassador Khalilzad.
    We just wrapped up that classified briefing and we are 
going now to continue our examination of these issues with the 
officials before us.
    So let's take a step back. I know that the idea of 
negotiating with the Taliban may seem abhorrent. I am from New 
York City and for myself and a lot of New Yorkers who lived 
through 9/11 it is a tough pill to swallow.
    And since then, many brave Americans have lost their lives 
at the hands of Taliban fighters. But here is the reality.
    After 18 years of war the Taliban still exists. We need, 
unfortunately, to deal with that fact, and the adage remains 
true, you do not make peace with your friends and, believe it 
or not, there is some common ground.
    For starters, the Taliban wants our troops out of 
Afghanistan and we want our troops home.
    So where do we go from there? In my view, any viable deal 
needs to be built on three pillars. The first is that the 
Taliban must pledge that Afghanistan will never be used again 
as a base to plan attacks against the United States and our 
allies.
    We understand that the Administration secured that 
commitment from the Taliban in earlier negotiations.
    Second, the Taliban must agree to separate from al-Qaida, 
something they have indicated they would do, and renounce 
violence including against the Afghan people or government.
    And last, the Taliban and the Afghan government must engage 
in a good faith process that can lead to reconciliation among 
all Afghans.
    This area still has a lot of unanswered questions, and with 
the President declaring the deal dead it is not clear where we 
go from here.
    The way I see it, we need to use whatever leverage we can 
to promote inter-Afghan dialog. The president suggested that 
peace would not be possible unless we first had a cease-fire in 
place.
    Well, guess what? There was a cease-fire in June 2018 to 
celebrate Eid, and what did we do to seize on this opportunity? 
Nothing.
    Why? Because the Administration has hollowed out the State 
Department. We have complained about this for a long time.
    State Department inspector general found that the Bureau of 
South and Central Asian Affairs has, quote, ``lost both staff 
and expertise,'' unquote, under the Administration, including 
experts on peace talks with the Taliban and reconciliation.
    So what will this administration do to get a second bite at 
the apple? Another cease-fire that might create an opening for 
more dialog?
    I would like to hear from our witnesses about that, among 
many other issues, because one thing is crystalline clear. 
There is no military solution to end the fighting in 
Afghanistan, and if there is another opportunity even following 
the President's disastrous attempt at deal making to forge a 
peace that advances American security interests, we need to 
consider those options.
    We owe this to the men and women who have fought and died 
in this war. We owe it to those who lost their lives or their 
loved ones at 9/11.
    We owe it to future generations of Americans who do not 
want to see our country entrenched in endless war and to the 
Afghan people who want a peaceful and prosperous future for 
their country.
    We will soon hear from our witnesses but first I will yield 
to our ranking member, Mr. McCaul of Texas, for any opening 
remarks he might have and I want to thank him publicly for his 
cooperation, as usual. We work together and we believe it 
brings good results not only for the Congress but for the 
American people as well.
    Mr. McCaul.
    Mr. McCaul. Thank you, Mr. Chairman, for holding this 
important hearing. I would also like to thank Ambassador 
Khalilzad for briefing committee members this morning where we 
had a robust and informative discussion on a range of timely 
issues. I look forward to staying engaged with him.
    I do want to say for the benefit of the members of this 
committee the chairman and I stand unified in our commitment to 
the--preserving the integrity of this committee.
    This is the second oldest committee in the Congress dating 
back to the Continental Congress. We do have Article 1 
constitutional oversight responsibilities and we do deserve 
that respect.
    Just last week, we commemorated the eighteenth anniversary 
of the 9/11 terror attacks that took the lives of 3,000 
innocent people.
    It was one of the most tragic days in American history. In 
the aftermath of 9/11 counterterrorism and homeland security 
became our top priority.
    It was necessary to go on the offense militarily and attack 
the terrorists abroad. That strategy included invading 
Afghanistan, removing the Taliban, and destroying al-Qaida.
    Since 2001, we have achieved many successes on the 
battlefield and through diplomacy. Specifically, we have 
decimated the leadership of al-Qaida.
    We captured Khalid Sheikh Mohammed, killed Osama bin Laden, 
and most recently, removed his son and rising leader, Hamza bin 
Laden, from the battlefield.
    And most importantly, we have not allowed Afghanistan to be 
the staging ground for another devastating attack on our 
homeland.
    We have also helped implement many political and social 
reforms. Millions of Afghanistan people have voted in 
democratic elections at all levels and Afghan women, who were 
not allowed to attend school or hold a job during the brutal 
reign of the Taliban in the 1990's, have made significant gains 
and I was pleased to hear women were part of these 
negotiations.
    These accomplishments have not been without great 
sacrifices. Over 2,300 Americans have given their lives in this 
conflict including Sergeant First Class Jeremy Griffin, who was 
killed in action in Afghanistan just on Monday.
    Over 20,000 more have been wounded. We must never forget 
their courage or the price we have paid on both blood and 
treasure to protect our homeland and to build a better future 
for Afghanistan.
    Unfortunately, the Taliban has made significant gains. 
Today, they control almost 50 percent of the country and have 
become increasingly violent.
    But after 18 years on the battlefield the American people 
and Members of Congress want to know what our plan is for 
peace, moving forward.
    I am glad the President decided against welcoming leaders 
of the Taliban to Camp David, particularly in the week of 9/11. 
Perhaps the current suspension of talks will allow us to 
reevaluate our strategy.
    And this committee, Mr. Chairman, I should say, and the 
Congress have a role in the process. There is no doubt that all 
of us would like to see this war come to an end and I fully 
support the Administration's efforts to bring a diplomatic 
resolution to this conflict.
    But there is also real doubt that the Taliban can act as 
legitimate partners for peace. By all accounts, their ties to 
al-Qaida remain intact, and further, the Taliban is not a 
monolithic organization. To only encourage--engage with the 
organization's central leadership overlooks local power brokers 
who do not always follow them.
    We also have to keep in mind many in the Taliban has some 
longstanding objections to a negotiated peace. They think our 
military will come home no matter what. I think some more 
extremist factions were responsible for that attack just to end 
the peace negotiations.
    And as Ambassador Crocker has assessed, and I have visited 
with him many times in Afghanistan, when he said that, quote, 
``The Taliban will offer any number of commitments, knowing 
that when we were gone and the Taliban is back, we will have no 
means of enforcing any of them.''
    We must also avoid the same mistake President Obama made in 
Iraq by withdrawing all of our troops for the purposes of 
preventing another 9/11 style attack on our homeland. I 
personally believe that we should keep a residual force in 
place to focus on counterterrorism intelligence and partner 
force training.
    I would also like to thank Ambassador Wells, Ms. Freeman, 
for being here. This hearing really comes at a critical time.
    As I can say, we did commend Ambassador--the prior 
Ambassador and special envoy this morning for his commitment 
and his service to the country in what I consider to be one of 
the most difficult negotiations on the planet.
    And with that, Mr. Chairman, I yield back.
    Chairman Engel. Thank you, Mr. McCaul.
    I will now introduce our witnesses. Alice Wells is the 
Acting Assistant Secretary of State for South Central and Asian 
Affairs. Karen Freeman is the assistant to the administrator in 
the Office of Afghanistan and Pakistan Affairs at the United 
States Agency for International Development.
    I, again, thank you both for your service and for your 
testimony this morning. Without objection, the witnesses' 
prepared testimony will be made part of the record and I will 
now recognize the witnesses for 5 minutes each to summarize 
their testimony.
    We will start with Ambassador Wells.

   STATEMENT OF THE HONORABLE ALICE WELLS, ACTING ASSISTANT 
  SECRETARY, BUREAU OF SOUTH AND CENTRAL ASIAN AFFAIRS, U.S. 
                      DEPARTMENT OF STATE

    Ms. Wells. Good morning, Chairman Engel, Ranking Member 
McCaul, and distinguished members of the committee.
    I appreciate the opportunity to testify this morning on the 
Trump Administration's policy in Afghanistan. Last week in New 
York, Washington, Kabul, and around the world we commemorated 
the 18th anniversary of the September 11th attacks on the 
United States.
    And when the U.S. began its military engagement in 
Afghanistan, our core interest was clear--to ensure that 
Afghanistan would never again be a platform for a terrorist 
attack on America.
    And in that regard, our mission over the last 18 years and 
partnership with our NATO allies has been a success. Since 9/
11, no terrorist group has used Afghanistan to attack our 
shores. But the threat remains significant.
    Afghanistan remains a haven for terrorist organizations. 
ISIS Khorasan has demonstrated the intent to organize or 
inspire attacks in the U.S. and Europe.
    It has the capacity and willingness to indiscriminately 
kill civilians who do not support their nihilistic ideology. In 
April, Russia, China, joined us in calling on the Taliban to 
make good on its commitments to cut ties with international 
terrorist groups to prevent terrorist recruiting, training, 
fund-raising, and to expel any known terrorists.
    While the United States remains committed to countering the 
threat of terrorism from Afghanistan, the Administration 
understands that the American people are ready to end this war 
responsibly.
    Military power alone will not bring peace to Afghanistan or 
eliminate the threat of terrorists exploiting Afghan soil. A 
negotiated political settlement accepted by most Afghans 
remains the best way to ensure a durable peace, and to enable 
Afghans to focus on ridding their country of international 
terrorists.
    In the last 12 months, we have made significant progress 
toward this objective. The Taliban engaged in dialog with the 
United States and discussions with our fellow Afghans, 
including Afghan government officials at an inter-Afghan dialog 
in Qatar this July.
    Special Representative Khalilzad and his team consulted 
with the government of Afghanistan and stakeholders across 
society. We built regional and international support for peace, 
enlisting the help of Pakistan, Russia, China, the Gulf, EU 
members and regional partners, and consultations within the 
U.S. Government are continuing on the best way forward.
    As we foster the conditions for direct negotiations between 
the Afghans, we are rationalizing our risk and our exposure to 
ensure a sustainable diplomatic assistance and military 
presence.
    Diplomatically, we have reduced our civilian direct hire 
presence from over 1,100 personnel in 2011 to around 500 staff 
today. Developmentally, we have tapered our civilian assistance 
from over $4 billion in 2010 to about $480 million today.
    Our international partners are now contributing three-
quarters of all development and humanitarian assistance to 
Afghanistan.
    Militarily, we have reduced our presence from over 100,000 
troops in 2011 to less than 14,000 today. NATO is constantly 
evaluating the requirements of the 39 allies and partners in 
Resolute Support Mission.
    Afghanistan is a different country than it was in 2001. 
Afghan troops are leading the fight against ISIS-K and the 
Taliban. Over 9 million students are enrolled in school, 39 
percent of them girls.
    One-third of the 4 million voters in the parliamentary 
elections were women. Afghan farmers are beginning to export 
high-value crops and a nascent private sector is strengthening 
supply chains and building market linkages with India and 
Central Asia.
    But challenges remain. Over half the Afghan population 
lives below the poverty line. Corruption, government 
malfeasance, and record high opium production threatens 
sustainability.
    We will continue to hold the Afghan government accountable 
for combating corruption and we will adjust our assistance 
levels accordingly.
    Afghanistan is holding a Presidential election on September 
28th. We have called for the Afghan government and electoral 
institutions to ensure the election will be credible and 
transparent.
    We have emphasized that all candidates are accountable to 
the code of conduct they signed pledging to respect the 
electoral process.
    Afghans have the right to vote without fear of 
intimidation, attack, or violence, and the Taliban statements 
threatening election workers and voters are naked intimidation.
    We offer our strong support to the Afghan security forces 
who are in charge of electoral security and sacrifice their 
lives on a daily basis.
    Even as Afghanistan goes to the polls, Afghans cannot pause 
their efforts to advance peace. Every Afghan must be invested 
in a political process that brings security and reconciliation 
after 40 years of violence.
    Finally, the United States will continue to safeguard 
American security. For too long the Taliban have taken comfort 
in their conviction that our engagement is unsustainable.
    Our friends and adversaries should understand our interest 
in protecting American citizens is enduring as we advance a 
responsible way toward peace, development and security in 
Afghanistan.
    Thank you.
    [The prepared statement of Ms. Wells follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Engel. Thank you, Ambassador Wells.
    Ms. Freeman.

STATEMENT OF MS. KAREN FREEMAN, ASSISTANT TO THE ADMINISTRATOR, 
   OFFICE OF AFGHANISTAN AND PAKISTAN AFFAIRS, UNITED STATES 
              AGENCY FOR INTERNATIONAL DEVELOPMENT

    Ms. Freeman. Chairman Engel, Ranking Member McCaul, and 
members of the committee, thank you for this opportunity to 
discuss the role of USAID in supporting U.S. interests in 
Afghanistan.
    Since May of this year, development and humanitarian 
partners have sustained three separate attacks by the Taliban 
that resulted in loss of life and injury to staff.
    These are senseless attacks on people who have dedicated 
their lives to improving Afghanistan's future. USAID sends our 
condolences to the families of the deceased and we hope for 
fast recovery to those who have been wounded. We echo Secretary 
Pompeo's call for the Taliban to stop attacking its civilians.
    This week's attack by the Taliban on energy infrastructure 
in Baghlan Province cut imported electricity to 12 Afghan 
provinces including power to Kabul's industrial parks.
    We were glad to hear this morning that power is being 
restored and we are happy to note that the USAID-constructed 
Tarakhil power plant is providing immediate backup supply of 
energy as intended for critical uses including hospitals and 
the Kabul Airport.
    This morning, there is also news of an attack that damaged 
a hospital. Attacks on civilians as well as projects that 
facilitate and advance the economy and the standards of living 
for the Afghan people must stop.
    Earlier this year, the U.S. Embassy in Kabul led a review 
of all U.S. civilian assistance, which directed departments and 
agencies to focus on three objectives: supporting the Afghan 
peace process, preserving stabilization of the Afghan State, 
and assisting Afghanistan's transition to self-reliance to 
create conditions for a political process.
    USAID's strategy in Afghanistan aligns with and supports 
these objectives by accelerating private-sector led economic 
growth, advancing education and health gains made over the past 
18 years, particularly for women and girls, and increasing 
accountability between the Afghan government and its citizens.
    USAID has pressed the government of Afghanistan to take the 
lead in the country's own future and make development gains 
sustainable.
    Just a few weeks ago, I joined my USAID colleagues in Kabul 
to close the formal review of U.S. Government civilian 
assistance to Afghanistan.
    We unequivocally stressed to the minister of finance that 
transparent, effective, and citizen response of government 
systems are essential to achieving private sector growth and 
attracting investment.
    The U.S. Government continues to convey to all Afghans that 
their country's relationship with the international community 
will depend heavily upon the inclusivity of any potential 
settlement which must preserve the rights and dignity of women.
    We also expect the upcoming Presidential elections 
scheduled for September 28th to be transparent and credible. 
The Afghan government must recommit and redouble its efforts to 
enhance transparency, increase citizen responsiveness and 
reduce the corruption that weakens Afghanistan's--the Afghan 
citizens' faith in a democratic civilian government.
    Over the past 18 years, USAID-funded gains have been 
significant. In the energy sector, as Ambassador Wells said, 
more than 30 percent of Afghans now have access to the power 
grid.
    More importantly, USAID is also working directly with the 
Afghan national utility to improve its management systems and 
ability to collect revenue.
    This assistance has helped to double revenue collection and 
increase its customer base by 73 percent in just a few years.
    In health, USAID is working with the Afghan ministry of 
public health to increase access to basic health care and 
ensure that sustainability of health throughout--through the 
development of effective public-private partnerships.
    In the education sector, not only have USAID programs 
supported millions of students but a future generation of 
Afghan women will have opportunities in STEM fields such--as a 
result of a USAID partnership with Texas A&M University.
    Afghanistan is a different place than it was in 2001 and 
its people are capable of more if it achieves citizen-
responsive good governance and transparency.
    USAID is prepared to support emerging needs and 
opportunities that could arise from a political settlement. The 
trajectory of Afghanistan remains clear.
    Civilian assistance helps create the economic and social 
conditions necessary for peace and self-reliance by focusing on 
long-term broad based development and reinforcing efforts to 
reduce violence and stimulate a peace settlement to end the 
conflict with the Taliban.
    Thank you for your attention and thank you for inviting me 
here today. I welcome your questions.
    [The prepared statement of Ms. Freeman follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Engel. Thank you very much.
    Let me ask both of you this question. You both mentioned in 
your remarks the recalibration efforts of U.S. assistance to 
Afghanistan, moving forward.
    Could each of you please explain what drove the department 
to propose these significant cuts to our assistance and how 
such a cut would support inter-Afghan peace and reconciliation?
    Ms. Wells. Thank you, sir.
    We were trying to ensure that the level of assistance that 
we were providing for Afghanistan was sustainable, was 
structured in a way that encourages the rise of the private 
sector and that it elicits better government performance so 
that the government increasingly has the capacity and the 
ability to assume all functions of a sovereign State, and at 
the same time ensure that our investment in Afghanistan 
reflects the level of investment, given global threats.
    Obviously, there has been a lot that has changed since 9/
11. Afghanistan is not the only country in which we face a 
terrorist threat.
    And so we wanted to be able to signal through the embassy 
posture and the aid restructuring that we are committed to the 
long-term development of Afghanistan but not over committed to 
the point that we are assuming an unreasonable or even a 
counterproductive level of nation building.
    Chairman Engel. Ms. Freeman.
    Ms. Freeman. Thank you for the question.
    As always best practice, USAID regularly reviews its 
missions' presence worldwide and in Afghanistan over the last 
18 months we established a new development strategy that 
focuses on establishing the conditions necessary for peace and 
self-reliance, and responsibly revise the portfolio based on 
lessons learned and input from various stakeholders.
    So during the recent embassy-led assistance review, we 
sought to further consolidate the portfolio while ensuring its 
ability to manage and provide proper oversight over taxpayers' 
resources and our ability to implement the program.
    We took into account the interests and the feedback from 
our congressional committees and from the Administration's 
priorities to support the Afghan peace process to preserve the 
stabilization of the Afghan State and to assist Afghanistan's 
transition to self-reliance.
    During the course of the review, we had a great deal of 
input and a lot of thought on what that consolidation should 
look like and took that all in as recently as a couple of 
months ago, and have honed down and consolidated the portfolio 
to mesh with the appropriate number of staff.
    Thank you.
    Chairman Engel. OK. Thank you.
    The U.N. assistance mission to Afghanistan founded the NATO 
and Afghan Security Forces were responsible for more civilian 
casualties than the Taliban in the first 6 months of 2019.
    What accounts for the increase in civilian casualties at 
the hands and pro-government forces? Have there been any 
significant changes in the rules of engagement? Is that the 
reason? And how has this impacted Afghans' view of their own 
security forces?
    Ambassador.
    Ms. Wells. Coalition forces and coalition forces working 
with the Afghans do everything possible to try to avoid 
civilian casualties and implement the highest levels of 
accountability. And I would contrast this, sir, with what is 
the focus of the Taliban in targeting civilians.
    As we saw in the attack on election workers, the attack 
against the hospital, all of which have just happened this 
week, I think statistically the Taliban, over time, have been 
the largest contributors to civilian casualties.
    The statistics that we saw, which we do not necessarily 
agree with the methodology, are an aberration and I think the 
intent of the--of the U.S. forces and the Afghan forces is very 
different from the intent of the terrorists who are literally 
terrorizing the Afghan civilian population.
    Chairman Engel. Thank you.
    Ms. Freeman, do you agree?
    Ms. Freeman. I would cede that territory to Ambassador 
Wells. Thank you.
    Chairman Engel. OK. Thank you. Thank you.
    Mr. McCaul.
    Mr. McCaul. Thank you, Mr. Chairman.
    The Taliban hosted and protected al-Qaida both pre-9/11, on 
9/11, and after 9/11. So there is a healthy amount of 
skepticism about cutting a deal with the Taliban.
    I remember visiting with Ambassador Crocker in Kabul when 
this idea was launched in our military. I guess the question is 
what other alternative do we have when they occupy and own 50 
percent of Afghanistan.
    I suppose, Ambassador, that is a necessary step? Or is 
there any other alternative to that?
    Ms. Wells. The peace framework agreement that was 
negotiated by the U.S. Government in discussions with the 
Taliban is very much a conditions-based approach.
    The Taliban are focused on securing the removal of U.S. and 
international forces from Afghanistan. They understand from 
nine rounds of negotiations that that can only come about if 
they are committed to working to ensure that Afghanistan cannot 
be a platform for international terrorism.
    Mr. McCaul. I am glad to hear that it's condition based and 
on a time line. Would that also--could that include the 
complete withdrawal of U.S. forces?
    Ms. Wells. I cannot speak to what ultimately a peace 
agreement is going to look like. As you know, for now the 
process is suspended.
    But, certainly, the discussion was very much about the 
interrelationship between the presence of troops, international 
forces, and the ability of the Taliban to ensure that not only 
were there not international terrorists allowed to operate on 
soil that they had influence over, but no recruiting, no 
fundraising, no tolerance of, sanctuary--any connections 
whatsoever.
    Mr. McCaul. And, of course, if that happens it would sort 
of snap back, if you will, correct?
    Ms. Wells. Right.
    Mr. McCaul. I always think, given our history lessons from 
Iraq, and I am glad the President decided to keep a residual 
force in Syria, and I think we should have one in Afghanistan 
for the foreseeable future if only to protect the homeland from 
an external operation like 9/11.
    Let me ask you about ISIS and the Khorasan group. When I 
was chairman of Homeland Security, particularly in 2015-2016, 
pretty terrifying briefings. External operations--the Khorasan 
group always one of the most active groups out there. And so 
the notion is that the Taliban is actually going to war with 
ISIS and the Khorasan group. How accurate is that information?
    Ms. Wells. The Taliban do oppose the ISIS Khorasan group. 
They devote resources--significant manpower resources to combat 
the Taliban--combat ISIS Khorasan.
    I think one of the reasons we put such an emphasis on peace 
is that we need Afghans to be united against ISIS Khorasan, and 
ISIS has been able to take advantage of the fact of the 
insurgency and the war that is going on in Afghanistan to 
exploit territory, despite what had been very fierce efforts by 
Resolute Support Mission and others to target them.
    We see a resilience and an enduring presence in places like 
Nangarhar and Kunar where it can be quite difficult to 
eliminate them as--or eliminate their presence entirely.
    Mr. McCaul. And that is based on the premise that the 
Taliban would be more willing to partner with the Afghan 
government than they would with ISIS?
    Ms. Wells. We would assume a peace agreement would unify--
provide a unified government that would reflect the--will of 
all of the Afghan people and that would allow a concentrated 
effort against what will be remnant terrorist forces in 
Afghanistan, not just ISIS Khorasan but others, whether it is 
Tehrik-I-Taliban, Pakistan. There is a vegetable soup of 
militant organizations that have some presence in Afghanistan.
    Mr. McCaul. I commend State on what is a very difficult 
negotiation. We all understand the drill here. The Taliban are 
not very nice people.
    But sometimes, you have to deal with the world the way it 
is and there is not a whole lot of great choices here.
    Last question. A withdrawal from Afghanistan--what 
assurances would you--could you get? I mean, like, you cannot 
predict the future but this would not result in the Taliban 
eventually overthrowing the Afghan government and then we have 
a Taliban-controlled Afghanistan.
    Ms. Wells. Well, what animates all of our diplomacy is the 
President and the secretary's absolute commitment to the 
security of the American people.
    And so any peace deal is going to be structured to ensure 
that Afghanistan cannot and will not reemerge as a threat to 
America.
    On the hypotheticals, I do not like answering hypotheticals 
but let me put it this way. The Taliban say they want to be a 
legitimate part of the international community.
    They argue that they want to attract foreign direct 
investment. They say they have learned lessons from the 
isolation that Afghanistan experienced under Taliban rule in 
the late 1990's and early 2000's.
    For any Afghan government that includes the Taliban to have 
those relationships, to attract that foreign direct investment, 
it is going to have to be a government in that upholds 
standards and values that the international community has been 
working to instill over the last 18 years.
    So I think that there is a substantial amount of leverage 
that the international community will continue to have in the 
form of assistance moneys and in how we engage the Afghan----
    Mr. McCaul. And I think that is correct, and if it--the 
problem with the Taliban they live in the mountains and the 
desert, and then you got the palace in Kabul that's U.S. backed 
and financed, and I think there is an inherent potential 
conflict. I think that is a great challenge that the State 
Department has.
    Thank you, Mr. Chairman.
    Chairman Engel. Thank you.
    Mr. Sherman.
    Mr. Sherman. Ambassador Wells, welcome back. We look 
forward to seeing you again next month at the Asia Subcommittee 
for our hearings on human rights in South Asia, and of course, 
there is considerable interest in my district and a number of 
others on events in Kashmir.
    It occurs to me that it is unlikely that we are going to 
have a peaceful and prosperous Afghanistan unless Pakistan 
wants to see a peaceful and prosperous Afghanistan.
    The border between Afghanistan and Pakistan is the Durand 
Line, but no government of Afghanistan has ever accepted that 
and all of--and including the Taliban and the current 
government have all seemed to taken the position that a huge 
chunk of Pakistan should actually be part of Afghanistan.
    It seems unlikely that Pakistan is going to be rooting for 
a peaceful prosperous Afghanistan if that Afghan government is 
actively claiming a big chunk of Pakistani territory.
    First, does the United States accept as inviolate the 
Durand Line as the border between Pakistan and India--Pakistan 
and Afghanistan?
    Ms. Wells. We do recognize the Durand Line as the boundary 
between Afghanistan and Pakistan.
    Mr. Sherman. And is there any prospect that we can persuade 
this Afghan government to if not permanently accept the line at 
least declare that they will not use violence in an effort to 
change that border?
    Ms. Wells. A great deal of effort--diplomatic effort--has 
gone into trying to increase the collaboration between 
Afghanistan and Pakistan, and yesterday we were very pleased to 
see Prime Minister Im Khan open up the Torkham Border for 24/7 
trade.
    It is going to be, I think, these practical steps to 
increase trade.
    Mr. Sherman. Yes. I do--I do think we can work toward 
practical and tactical steps. But I hope that we are also 
dealing with this festering problem as long as those Afghan 
claims are made and as long as Pakistan can fear that at some 
future point India and Afghanistan will agree that Pakistan 
should be--well, I will move on to the next question.
    We are supposed to have had a deal and then the tweet came 
down and we rejected the deal. Whether or not that was--or at 
least put the deal on--I believe negotiations are frozen.
    Since the deal seemed to envision a Camp David visit on 9/
11, I am not--there might be reasons. But I am trying to 
understand why this deal was not--or at least as of yet has not 
been effectuated, and the reason given by the President is that 
there was one instance in which one American soldier was 
killed.
    But at the same time, Secretary Pompeo has said during this 
same period of time we have engaged in successful military 
operations that have killed over a thousand Taliban fighters.
    Did we really have a deal with the Taliban that during the 
two or three--that they would not attack us but that we would 
attack them and their violation of that deal is why we, did not 
go forward with the agreement?
    Ms. Wells. Both the President and the secretary have spoken 
to this and, basically, what we saw--the Taliban actions that 
we saw in the days leading up to a potential agreement on a 
political framework were inconsistent with the nine rounds of 
negotiations that we had held with them.
    And we saw the Taliban attempting to use violence as a form 
of intimidation and they took actions that were basically 
inconsistent with what ultimately was going to need to be a 
reduction in violence.
    Mr. Sherman. I would point out that killing a thousand 
Taliban forces, as Pompeo claims we did, is also a violent 
action.
    Finally, there is this idea that they are going to prevent 
recruiting and fundraising by terrorists in their territory.
    We have recruiting and fundraising by terrorist 
organizations here in the United States where we have an FBI 
office in every major city.
    What verification system do we have on the ground in 
Taliban-controlled areas to see that there was not a terrorist 
presence, was not terrorist recruiting, and was not terrorist 
fundraising?
    Ms. Wells. Again, I am not going to be able to speak to the 
specifics of what was being negotiated. But very much this was 
a conditions-based approach and the--built into the discussions 
that Ambassador Khalilzad had with the Taliban----
    Mr. Sherman. Are you aware of any verification system that 
we had at all or was it trust and do not bother to verify?
    Ms. Wells. This was very much about being able to verify 
and have confidence that the Taliban had taken the steps they 
had undertaken to implement.
    Mr. Sherman. And but you are not aware of any verification 
systems?
    Ms. Wells. I am not in a position to discuss the details of 
what was--what was being discussed.
    Chairman Engel. Thank you.
    Mr. Yoho.
    Mr. Yoho. Thank you, Mr. Chairman, and Mr. Chairman, I have 
got an opening statement I would like to submit to the record, 
without objection.
    Chairman Engel. Without objection.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Yoho. Thank you, sir.
    Ambassador Wells, Ms. Freeman, thank you for being here.
    There is a generation of Americans that have grown up--
actually, they are approaching 20 years of age and they were 
not around when 9/11 happened, and we have been at this 
conflict--this war--for 19 years and, know we know all the 
expense and the lost lives that can never be replaced.
    And the person that brings a peace deal to this conflict 
will win the Nobel Peace Prize, and I appreciate the work you 
have done.
    One of my--I have got two concerns. One is the work and the 
progress that has been made with the electric grid, the 
education that's going, the economy, women going to school and 
being allowed to go to school.
    To lose that, in your opinion, do you see if the Taliban 
gets--if we pull out and negotiate with the Taliban, are they 
going to continue that? Are they going to, go back to where 
they were with Sharia Law?
    Ms. Wells. The Taliban have said that they have learned 
from some of the mistakes they made in the past. But the 
Afghanistan that they are going to--the Afghans that they are 
going to sit across the table from in any negotiation are 
Afghans who have come of age also with these new freedoms and 
abilities to contribute to their society, whether it is women, 
whether it is minorities, and Afghans consistently in polls 
indicate that they do not want to give up these gains that they 
have made--the social and political gains that have been made 
over the last 18 years.
    Mr. Yoho. Is the Taliban willing to do that?
    Ms. Wells. That is going to have to be negotiated between 
the two sides. I think what is interesting, are two points.
    One, you see in Taliban-controlled areas that they are 
under pressure to open girls schools. In the most conservative 
areas there are still no schools and that can be true in 
government-controlled areas as well.
    But there is a demand consistently among the Afghans for 
their daughters now to be educated. I think that is a new 
reality----
    Mr. Yoho. Are those people at the table that are demanding 
that?
    Ms. Wells. They will be. I mean, the Afghan negotiators who 
will sit down across from the Taliban will be bringing these 
demands, I am sure, to the table.
    Mr. Yoho. All right. And I hope as this winds down that it 
is understood that radical Islamic terrorists is not accepted 
anywhere in the world and especially if they mount attacks that 
come to America it will be met with severe vengeance.
    As the ranking member in the Asia Pacific and 
Nonproliferation Subcommittee, I especially want to bring 
attention to the growing Chinese influence in Afghanistan via 
their high debt bad terms Belt Road initiative.
    And just recently in Reuters the 16th of this month China 
signals veto standoff with the U.S. over Afghanistan because 
their feelings were hurt because the BRI was not brought up.
    Have they--have the Chinese been in there influencing any 
of this either way or are they preventing a settlement?
    Ms. Wells. The Chinese have worked with Ambassador 
Khalilzad, as have other regional countries including Russia 
and the immediate neighbors on a way forward on peace.
    And so there is constructive engagement with China on how 
do we prosecute peace. But I think it is fair to say that China 
has not contributed to the economic development of Afghanistan.
    We have not seen any substantial assistance from China. The 
Belt and Road is a slogan. It is not any reality and, of 
course, we continue to warn our partners and would certainly 
warn the Afghan government about falling prey to predatory 
loans or loans that are designed to benefit only the Chinese 
State----
    Mr. Yoho. But we know the way the Chinese work. I mean, 
with the corruption they will fall right into that. I mean, it 
is an easy road for them, and if they have not contributed to 
the peace process, if they have not contributed to the 
rebuilding of that nation, they should have no say in this. I 
feel that way, and I hope we stand strong on that because we 
have seen the effect of what China has done.
    And, I want to--Ms. Freeman, I want to just point out to 
you that, with what you are doing with USAID and going in there 
and doing the work, you are in a tough neighborhood, and making 
the gains you are doing I appreciate that.
    And with the rollout of the BUILD Act in October our goal 
is to establish, identify significant infrastructure 
developments, that we can go in and that we can go in as a 
trusted partner that we are going to do something that is best 
for the Afghan people to build their economy so that we can 
develop the jobs for them so that we have trading going on.
    Do you have any thoughts on that of where we can look at?
    Ms. Freeman. Thank you, sir.
    First of all, let me just echo some of Ambassador Wells' 
thoughts on going forward. I think it is important to note that 
over the last 18 years the change in Afghanistan has been so 
great in terms of the laws, education, the development of a 
very active, a very vocal private sector, the increases in 
trade, the strengthening of civil society, and it is created a 
reflective demand in areas that can see what has happened.
    In terms of infrastructure, we continue to work on--work 
with the government of Afghanistan to strengthen their ability 
to develop the infrastructure.
    So I think what you will be seeing in terms of the core of 
USAID's program there is to involve the government and involve 
with private sector, and----
    Mr. Yoho. Thank you. I am going to stop you there just 
because I am out of time, and thank you, ma'am.
    Chairman Engel. Thank you, Mr. Yoho.
    Mr. Sires.
    Mr. Sires. Well, good morning and thank you for being here, 
Ambassador and Ms. Freeman.
    My district that I represent is across from the World Trade 
Center, and for months we watched the plume of smoke and so 
forth. It was beyond me what the thought process was to invite 
the Taliban to come to Camp David.
    Can you tell me what--I mean, it was so insensitive and 
so--sensitive is mild for some of the people in my district. 
What was the thought behind that?
    Ms. Wells. Both the President--I think the President 
himself has spoken openly about his thought process on the Camp 
David invitation.
    I would just underscore, it again shows that this is an 
administration that is willing to take risks to try to promote 
peace. But I appreciate your concerns.
    Mr. Sires. Yes, but I got--I have to say inviting the 
Taliban to Camp David, I mean, that is a little bit too much to 
swallow after--it was almost days before the towers came down.
    So, to me, I hope that this idea is dead and you bring that 
back and say that many people not only thought it was 
insensitive but it is just not appropriate to bring the Taliban 
to America, to Camp David, to do a negotiation.
    There are many places in the world that you can meet to 
negotiate. So I hope that thought is dead of bringing these 
people to America.
    I keep reading that the Taliban has been very vocal about 
refusing to engage with the Afghan government, and previous 
attempts at inter-Afghan talks have failed.
    So how are we going to be able to come to any kind of a 
peace if these people do not talk to each other? What are the 
prospects of peace? What are the prospects of them talking to 
each if they--if they keep being so vocal about it?
    Ms. Wells. The goal of the last round of or series of 
negotiations was designed to bring Afghans together to a 
negotiating table and, the conversations that we were having 
with the Taliban were the prelude to conversations that the 
Taliban would have with a, Pan-Afghan, national negotiating 
team that would include members of the government.
    There was initial progress in that the informal dialog that 
took place in Qatar in July did include members of the Afghan 
government as part of the delegation meeting with the Taliban.
    So, again, I think we have broken new ground as a result of 
this last series of negotiations that took place.
    Mr. Sires. What might some incentives be to the Taliban to 
engage in good faith dialog with the Afghan government? What 
can we offer them? What incentives will we give the Taliban?
    Ms. Wells. I do not think we need to talk about incentives. 
I think we need to talk about what are mutual interests, and 
there are--the Taliban have an interest, in being able to 
participate legitimately in a government that is recognized by 
the international community and to avoid the costs of war.
    I think the Taliban appreciate, based on what they have 
said publicly, that there is a cost to Afghanistan's 
development by the ongoing war and they also see, frankly, the 
rise of other terrorist groups who pose a threat to themselves 
and to the future of Afghanistan.
    If you look at a group like ISIS Khorasan, I mean, that is 
a terrorist group that does not recognize Afghanistan as a 
nation State.
    This is a group that focuses on caliphate and borderless, 
territory under the organization's control. That is a deep 
threat to all--all people of Afghanistan including the Taliban.
    Mr. Sires. Are the Taliban stronger now than they were in 
2001 militarily?
    Ms. Wells. Well, in 2001 the Taliban controlled, the entire 
country, so no. The Taliban do not control any provincial 
capital. They do not rule in any province of Afghanistan.
    When they fight and then they have to leave because they 
cannot sustain control over the district centers or the 
provincial centers.
    And so, the Taliban are very good at public diplomacy and 
messaging. But they are by no means, controlling Afghanistan. 
And I hesitate to get involved in the statistics on control of 
territory because they can be very misleading.
    If you look at all of the urban centers of Afghanistan 
where a majority of the population now reside, this is under 
government control and benefiting from the investments and 
development of the last 18 years.
    Mr. Sires. My time is up. Thank you very much.
    Chairman Engel. Thank you, Mr. Sires.
    Mr. Kinzinger.
    Mr. Kinzinger. Thank you, Mr. Chairman, and I really do 
thank you both for being here and it means a lot that you are 
willing to take the time and talk about these tough issues.
    I think, first off, we need a bit of a reset in the 
narrative from the Rand Paul endless wars narrative that we 
hear and look at where we are really at.
    First off, I do want to say, though, I think the Camp 
David--I am going to add myself to the record. The Camp David 
meeting was an utter disaster and never should have happened, 
infuriated me and I think even people that wanted to get out of 
Afghanistan it ticked them off, too, and I have no clue how 
that could have gone through any kind of filter, not just of 
ideas but how we actually got to where it was going to freaking 
happen.
    So I hope that never happens again. No terrorist should be 
allowed in the United States unless they are in chains and 
especially a terrorist that attacked the U.S. on 9/11--harbored 
the terrorists and especially on the anniversary of 9/11.
    So I got that out. I do want to say, though, that I think 
the thing we have to keep in mind is this fight that we are 
fighting in terrorism is a generational battle.
    It took us decades to basically overthrow the Soviet Union 
and that was not through fighting. This is a low-grade war 
version of that.
    But it took that second and third generation of people 
behind the Iron Curtains to make the decision that they did not 
want to live like that, and that is what overthrew and torn 
down the Iron Curtain.
    I think the same thing is going to happen in this battle. 
It i's going to be fighting terrorists where they exist but 
also, and this is where USAID and some of those initiatives 
come in especially important, giving hope and opportunity to a 
new generation of people so that they can see that there is an 
opportunity for a life outside of radicalization--that you can 
live past the age of 15 when they strap a suicide bomb to you 
and tell you to walk into a crowded cafe or something like 
that.
    Bringing hope and opportunity is how you are going to fix 
this gang situation in the United States and it is how you 
prevent people from recruiting terrorists and I think that is 
what we have to keep in mind.
    Is this battle that we are fighting, though we would all 
love to be over with it, is not our choice? This is not our 
decision. We are not the ones that decided to radicalize and 
kill innocent people.
    Instead, we are the ones that reacted and we reacted in a 
pretty fierce and intense way, and we need to understand that 
because I think if we leave Afghanistan under the wrong 
conditions, which I think, frighteningly, we are actually on 
track to do, we are going to be back here anyway.
    And we talk about how this is the first time a kid is 
fighting the same war as his dad. I agree. But we are going to 
have a grandkid fighting the same war as his grandpa if we 
leave Afghanistan in a bad situation, because they are not 
going to quit trying to come here.
    And the reason we are not thinking about terrorism as much 
as we have in the past is because we are being successful in 
fighting it.
    We are fighting it over there. They are not able to train 
and recruit here as much as they used to be able to and we are 
keeping them on the--on the defensive.
    So, Ambassador Wells, I have to ask you just a couple of 
quick questions. We killed a thousand Taliban. It may be a 
hundred. It may be a thousand. It may be a million. I do not 
know what it is.
    But we did kill some Taliban after we pulled out of these 
negotiations. The question I have is does that mean we were not 
targeting Taliban at all and we were allowing them to regroup 
and retrain until this moment? Or have we been prosecuting that 
fight anyway?
    Because I do not think if we had a Taliban target we 
probably would not take it out.
    Ms. Wells. We absolutely have been fighting and talking our 
way through the negotiations and the only distinction I would 
make, Congressman, is that I think we and the Afghan government 
and people distinguish between a Pashtun nationalist insurgency 
and a group like ISIS.
    And so the ability to try to prosecute a peace settlement 
is to hive off that insurgency so that a consolidated Afghan 
government can focus on what is truly the generational threat 
to all of us--an organization like ISIS Khorasan.
    Mr. Kinzinger. Thank you. But I also think Taliban was a 
threat but I understand your point. But, I think, frankly, if 
we want any favorable negotiation--this is above your pay grade 
but I will say it--if we want a favorable negotiation you do 
that through prosecuting the war against the Taliban and saying 
we are willing to have peace, but until we do it is going to be 
painful.
    And you know what? Your kids and your grandkids may have to 
fight this but, hopefully, we can get to a peace settlement.
    The other question I have--you know what? I am just going 
to make it as a statement. I am concerned that the President's 
statements since he was in Canada and since he has been in 
office repeatedly declaring his desire to get out of 
Afghanistan, calling this, basically, a dumb war--whatever he 
has used, which, by the way, is brand new--this used to be a 
very bipartisan agreement on this fight--is only emboldening 
the Taliban in the discussion.
    When you see the man making the call claiming he wants to 
leave, it is hard to give up a lot when you know that that is 
the end goal.
    It was the same reason I was critical of the Iran nuclear 
deal, quite honestly, because I thought the Administration made 
too many statements about their desire to get to the end.
    I want to say thank you to both of you for your good work 
and being here. Thanks for your service to your country.
    And, Mr. Chairman, I yield back.
    Chairman Engel. Thank you, Mr. Kinzinger.
    Mr. Bera.
    Mr. Bera. Thank you, Mr. Chairman, and I also want to 
reiterate what my colleague from Illinois just said.
    Ambassador Wells, Ms. Freeman, thank you for your service 
and thank you to the service of our diplomats and our aid and 
development workers around the world every day representing the 
United States.
    Obviously, this is a very complicated region and with the 
blood and monetary investments that we have made over the last 
18 years in the region we want to give Afghanistan the best 
possibility of success and it is not going to be easy.
    So I commend both of you and the negotiators to try to find 
that path forward and, obviously, we have got a fatigued 
American public as well as a fatigued military that will always 
do the mission but also wants to come home.
    Knowing that and knowing we want to give Afghanistan the 
best chance of success, I would like to focus on some of the 
countries within the region, notably, India and Pakistan, 
again, two countries that are not having the best relationship 
right now but both that are going to be vitally important to 
Afghanistan's success.
    Perhaps, Ambassador Wells we see the tensions in Kashmir 
right now. You hear conversations from the Indians at times 
with some concern that America's desire to get a deal then in 
Afghanistan potentially has them negotiating with Pakistan and 
Kashmir is part of that.
    Do you see any evidence of that and just from your 
perspective?
    Ms. Wells. What we see are two countries--India and 
Pakistan--that both have national security interests in 
Afghanistan and both countries will benefit by an Afghanistan 
that is truly at peace and stable.
    I think the principle that has to undergird relations 
between all the countries in the region is the respect for 
territorial integrity and sovereignty that no militant proxies, 
no nonState actors are acceptable and in being used as a lever 
of influence or pressure against another.
    And so in our diplomacy to the region that undergirds our 
approach. How do we have the region all reap the benefits of 
peace?
    If you look at, for instance, Afghanistan being a blocking 
point now between the flow of trade including energy, energy is 
ten times more expensive in South Asia than it is in Central 
Asia. But you cannot get it there because of the instability in 
Afghanistan.
    So how do we frame an outcome where everybody palpably 
benefits by being able to create stable and enduring political 
structures.
    And so I think that there is a conversation that absolutely 
all countries in the region need to have and have to have, and 
that certainly has guided Ambassador Khalilzad's approach as he 
has built out his conversations on peace with the regional 
actors.
    Mr. Bera. So as we kind of take that multilateral 
approach--again, a complicated region--I would agree with you 
that you do need the players in that region who are closest to 
Afghanistan to be sitting at the table helping negotiate that 
peace deal.
    Obviously, as we start to withdraw, with that comes a lot 
of resources that we have dedicated to--and there are few 
countries in the region that--India has dedicated billions of 
dollars to construction and investment. The hope would be that 
China in a responsible way potentially helps out there as well. 
Again, very complicated as we move forward here.
    Ms. Freeman from the USAID perspective, obviously, we have 
made investments in Afghanistan as well trying to educate 
girls, you know, and trying to give them the best chance of 
success.
    What would you say our focus ought to be, again, working 
with the other countries in that region as well?
    Ms. Freeman. I think that one of the shifts that we saw in 
our most recent strategic review has been one that really 
focuses much more on the private sector, much more on exchange 
and really looking at the realistic flow throughout the region, 
be that the strengthening of the electrical grid that connects 
the region or extending trade throughout the region.
    We have had a number of highly successful--in fact, there 
is another one coming up next week--trade fairs in which we 
engage the Indians and others in the region.
    We have helped the government of Afghanistan to strengthen 
its air corridors so that it can trade more rapidly within the 
region. So those--that connectivity really does follow trade 
and we have worked very hard to increase the ease of that trade 
and the ease of the negotiation within the region.
    Mr. Bera. Well, again, thank you for--both of you for your 
service, and with that I will yield back.
    Chairman Engel. Thank you, Mr. Bera.
    Mr. Zeldin.
    Mr. Zeldin. Thank you, Mr. Chairman, Ranking Member. Thank 
you for the witnesses for both being here.
    First off, with regards to the Camp David meeting, echoing 
sentiment that I have heard from colleagues on both sides of 
the aisle. I certainly share it myself.
    I am glad that meeting with the Taliban at Camp David was 
canceled. I believe that that should not have been scheduled in 
the first place and I would not want to see the Taliban back at 
Camp David in the future, especially on the anniversary of 
September 11th, 2001.
    Now, this is not simple. If this was all simple this would 
have been resolved a long time ago. On September 11, 2001, al-
Qaida terrorists murdered thousands of innocent Americans and 
countless first responders have died since because of exposure 
to toxic chemicals at Ground Zero in the days, the weeks, the 
months that followed September 11th, 2001.
    Our decision to go to Afghanistan was correct and 
legitimate. I am glad that we made that decision when we did to 
deliver justice to defend America.
    It has been at great cost here in our own country. Justice 
has been delivered overseas. Osama bin Laden is dead. There are 
many others who have followed his fate. There is great cost, 
the greatest cost at attacking U.S. interests as we saw on 
September 11th, 2001.
    So while we mourn the loss of life here in the United 
States, what should not go unnoticed for our adversaries abroad 
is the unlimited amount of resolve and will of our country to 
deliver justice to anyone who seeks harm to us.
    There are terrorists there--terrorist groups--who are in 
and around Afghanistan who would like to continue to kill 
Americans. They would like to continue to target U.S. 
interests.
    And here we are. It is 18 years later. Many in the United 
States want to end the war in Afghanistan. Quite frankly, every 
American should want to end any war, whether it is in 
Afghanistan or anywhere. We should not want war in the first 
place.
    But as I said, in Afghanistan our decision to go in was 
correct and legitimate. The Taliban wants us out. I want to be 
able to ask you a question with regards to what the Afghanistan 
government wants and how we deal with it.
    I think it is naive to think that we just leave Afghanistan 
today and everything just works itself out on its own. I 
believe strongly that the vacuum is not successfully filled at 
this moment by good people in Afghanistan government--not right 
now.
    So how do we get to the result that we want? This morning 
this committee met with Ambassador Khalilzad. I thought it was 
a good meeting. I am not allowed to--we are not allowed to get 
into it because it was a classified briefing.
    I will just say I believe it was very helpful for that 
meeting to take place. I believe that that should happen again. 
I believe that we should be spending more time together.
    It is good for us here on this committee to hear from him 
in that setting and I also think it is good for the State 
Department to hear from us to get fresh eyes, to get other 
perspectives.
    And that brings me back to my question. In our time left 
and in an unclassified setting, can you speak to where we are 
at with the Afghanistan government--what they desire as far as 
the American presence and how do we get the Afghanistan 
government in a place where we can leave and the good guys in 
Afghanistan's government fill that vacuum so that we are in a 
position to leave?
    Ms. Wells. I think the critical point is that we do not 
want to leave or abandon Afghanistan at all. I mean, what we 
want is to have a sustainable enduring partnership with 
Afghanistan.
    Currently, with this Afghan government we have a bilateral 
security arrangement. We have a myriad of MOUs that bind us 
together as partners and allies.
    And I think the Afghan government very much wants to see 
that partnership with the American people and the American 
private sector and the American government to continue.
    Our provision of support--right now, we provide about 80 
percent of support for the security sector is absolutely 
essential.
    So I think we have to build confidence that in Afghans as 
they sit down at a table with the Taliban that the--that the 
international community is not looking to run away.
    And so today, for instance, in London there was a meeting 
of donors to discuss how--what would we do in the event of a 
peace treaty--how do we respond to peace--how do we create 
economic programs that will help a new Afghanistan government 
get on its feet and succeed as a nation State.
    And so through doing this kind of an organization, through 
engaging the Afghan government and ultimately the Taliban, I 
think we need to signal very clearly that the objective is not 
to walk away.
    Mr. Zeldin. I appreciate that answer, Ambassador Wells. 
Specifically with regards to military presence, I think it is 
important to note that the days of the United States military 
having the amount of numbers that we have now is not one that 
we want to be continuing indefinitely.
    So that was specifically what I was getting at. I very much 
appreciate your answer and for being here.
    I thank the chair for hosting today's hearing. I yield 
back.
    Chairman Engel. Thank you, Mr. Zeldin.
    Mr. Cicilline.
    Mr. Cicilline. Thank you, Mr. Chairman. Thank you to our 
witnesses.
    Ambassador Wells, what is the current state of the 
relationship between the Taliban and al-Qaida and what, if 
anything, did the Taliban agree to with respect to that 
relationship in this framework, if they did?
    Ms. Wells. The Taliban have never repudiated their 
relationship with al-Qaida and so that is the fundamental crux 
of the issue.
    And in the--what has been said publicly about the 
conversations and negotiations that have taken place with the 
Taliban is that in this conditions-based framework we were 
looking to the Taliban to cutoff all sanctuary, the ability of 
any al-Qaida members to reside there, to recruit there, to 
fundraise there--operate.
    And so it was a complete commitment to eliminate ties and 
presence of al-Qaida.
    Mr. Cicilline. And with respect to terrorism, broadly, is 
there--is there a framework about the commitments that the 
Taliban makes with respect to terrorism in this proposal?
    Ms. Wells. I cannot--it is not for me and certainly not in 
this setting to go into the details of the--of what was 
negotiated. I was not part of the negotiating team.
    But what animates the approach of the Administration is 
that we--the peace agreement must be founded on the principle 
that American security is not in peril--that we continue to 
ensure that Afghanistan not become a platform--that we have 
confidence that Afghanistan is not going to become a platform.
    So I can assure you that these concerns are at the very top 
of the negotiating agenda, as was evidenced over the last nine 
rounds of talks.
    Mr. Cicilline. And, Ambassador Wells, what mechanisms will 
be available to the United States if it draws down its military 
presence and the Taliban fails to live up to the commitments it 
makes?
    Are we working with international partners who are 
interested in supporting the Taliban or ensuring that the 
Taliban meets its obligations?
    Or what is the enforcement mechanism, because how do we 
avoid getting back into the situation where they make a 
commitment, it does not happen, and we are back again to some 
suggestion that we need to increase military engagement in a 
place we have been for 18 years?
    Ms. Wells. Again, I cannot prejudge what a peace agreement 
would produce. But I will just cite the secretary's comments on 
this and that is we have a very powerful and capable military 
and we are confident that we are able to prosecute and protect 
our interests.
    Mr. Cicilline. But my question really is what mechanisms do 
we have to ensure that the Taliban complies with an agreement 
that we may reach with them?
    Ms. Wells. I cannot prejudge what will come out of and what 
will be finally negotiated in a political framework agreement.
    Mr. Cicilline. OK. Do you think it is important that the 
agreement be reached between the Afghan government and the 
Taliban prior to any decision on a withdrawal by U.S. military 
personnel and what are the risks if our troop withdrawal 
precedes that or precedes even a countrywide cease-fire?
    Ms. Wells. All I can say is that publicly we have 
underscored the expectation that an inter-Afghan dialog would 
be taken--would be undertaken in good faith and quickly.
    Mr. Cicilline. And finally, Ambassador Wells, how should 
the United States and our international partners enforce any 
Taliban commitments on human rights, of course, particularly 
with respect to the progress for minorities, women, and girls.
    I mean, do we have--what is your view on how we can most 
effectively enforce commitments that are made and what is the 
role of our partners in the international community? This is an 
area of deep concern, I think, to many members of this 
committee.
    Ms. Wells. I think it is very important that donors speak 
with one voice about the importance we attach to the values 
enshrined in the Constitution and particular respect for the 
rights of women and girls to education, to work outside the 
home, protection for minorities.
    And, again, today in London there will be a meeting of 
donors where one of the central goals is just to underscore 
this common commitment that we have.
    So if the Taliban wants to be or if a government that 
includes the Taliban wants to be a legitimate member of the 
international community that is going to be the expectation of 
the international community.
    Mr. Cicilline. And are there women engaged in the actual 
negotiations that have been underway actually at the 
negotiating table? So in addition to issues related to women 
and girls are there women who are participating in this 
process?
    Ms. Wells. At the inter-Afghan talks that took place in 
Doha, 25 percent of the non-Taliban participants were women. 
Women are members of the High Peace Council. In Afghanistan, 
President Ghani has given public assurances that of his intent 
to have Afghan women on any Pan-Afghan negotiating team.
    Afghan women are certainly a critical audience for us as we 
engage with stakeholders across Afghanistan to both explain our 
approach and to understand their concerns.
    Mr. Cicilline. Thank you. I yield back, Mr. Chairman.
    Chairman Engel. Thank you very much, Mr. Cicilline.
    Mr. Perry.
    Mr. Perry. Thank you, Mr. Chairman. Thank you for your 
attendance today. Seems to me that the enemy is not leaving 
anytime soon.
    Whether it is al-Qaida, ISIS, Taliban elements, Haqqani, 
you name it, they are all either operating, increasing 
operations or waiting to fill the vacuum and we do not, 
certainly, want to abandon the Afghan people or our very, very 
significant investment in the stability and peace in 
Afghanistan.
    That having been said, I just wonder--I think you said that 
we are providing 80 percent--is that right--80 percent of the 
strong support in the strong support role for Afghan security 
forces?
    Ms. Wells. That is right, and 25 percent of economic and 
humanitarian assistance.
    Mr. Perry. Based on that, it just seems--when will they be 
able to sustain themselves? I mean, I think--look, America and 
Americans, I think, are rightly weary of the--of the treasure 
both in lives and that continues, and economically that 
Afghanistan has cost our country with, I would say, I think, in 
a lot of people's minds marginal results for so long a slog 
here, and we are trying to figure out, I think, as many 
American citizens how much longer will it be.
    And it almost seems like--I know they are trying to develop 
capability but they have an incentive to not develop capability 
as long as we are willing to be there at 80 percent, and it has 
got to come--it has got to come down and they are going to have 
to--they are going to have to take on more of the role and, 
quite honestly, some of the neighbors in the area that have a 
vested interest in Afghanistan's safety and security have got 
to take a bigger role.
    Will the Afghan government, as far as you know, allow 
American basing as a part of any negotiated deal and settlement 
that has a diminution of activity or forces and strong 
supportive security forces over the long haul? Will they allow 
us to stay in some regard?
    Ms. Wells. We cannot know or predict what is going to come 
out of a negotiation between Afghans and the Taliban. What I 
would stress----
    Mr. Perry. I am talking about the Afghan government and the 
United States--the negotiations between the United States. I 
know the Taliban does not want us there. That is part of the 
problem. But the Afghan----
    Ms. Wells. But with the Afghan government we do have a 
bilateral security arrangement. We reside on Afghanistan bases. 
We have a military presence on Afghanistan bases and very much 
our support for the Afghan government is premised on 
Afghanistan's sovereignty.
    But I agree, sir, and the President and the secretary have 
spoken forcefully about the $30 billion or so a year that we 
spend to maintain the operations in Afghanistan.
    So we are looking to reduce those numbers by trying to 
rationalize our presence and our approach to the battle in 
Afghanistan.
    We have actively and successfully increased the amount of 
burden sharing by our donors and I think if you point to the 
economic section that is very----
    Mr. Perry. I do not mean to interrupt you, ma'am. I think I 
just want to make sure that--just we consider Japan and Germany 
sovereign nations but we--but we are afforded basing in those 
countries over the long term and it seems to me that 
Afghanistan should be in the same position.
    But they need to secure their own country, their own 
sovereign nation and not depend on 80 percent--an 80 percent 
solution set from the United States in that regard.
    Because of the neighborhood that Afghanistan resides in, I 
have been to Kabul. It looks indefensible to me, as a 
military--as a military guy, and I wonder if you can assess if 
we are going to remain in Afghanistan for America's interests, 
even if it might not be for the sake of the security forces of 
Afghanistan and their--and supporting them at 80 percent or 
anything close to that.
    But are we going to remain for our own national interest 
and national security interests so that we can operate in 
Afghanistan as necessary when al-Qaida, ISIS, Khorasan, 
whoever, pops their head up?
    What is the best defensible position geographically that we 
can also sustain, understanding that Pakistan is on one side, 
you got China up there, you got Iran around the southern and 
western side? Is it Tajikistan? Is it on the border with 
Uzbekistan?
    If we were going to remain there indefinitely like we have 
in Germany and Japan for our own national security, what is the 
best geographic location, in your assessment, to do that?
    Ms. Wells. We are not looking for permanent basing in 
Afghanistan and to the contrary, we would like to be able to 
create the conditions for our troops to come home.
    But in the absence of the conditions allowing that, if 
there continues to be----
    Mr. Perry. The enemy is going to remain, as you know.
    Ms. Wells. If you posit that the enemy is going to remain, 
I mean, certainly, we would welcome the opportunity to have a 
counterterrorism relationship with whatever government emerges 
in Afghanistan.
    I cannot predict or conclude what is going to be the case 
at the end of a negotiation. But when it comes to the 80,000 
figure, I would just add I think everyone agrees, including 
Afghan officials, that the--the size of the Afghan army now is 
not sustainable. It is a function of the war that is being 
fought in partnership with us.
    But, a sustainable Afghanistan and Afghan government that 
can support its own economic development and support its own 
security forces would look very different.
    Mr. Perry. My time has expired. I yield.
    Chairman Engel. Thank you, Mr. Perry.
    Ms. Titus.
    Ms. Titus. Thank you, Mr. Chairman.
    I was just kind of surprised to hear you, Ambassador, say 
Belt and Road is a slogan, not a reality. We've been hearing an 
awful lot about the reality of infrastructure projects across 
Africa, reports ranging from Sri Lanka to Lima. I think it is 
more than a slogan.
    Second, I appreciate Mr. Cicilline bringing up the point 
about women. I do not think I share your optimism that we can 
trust the Taliban to negotiate in good faith with the Afghan 
government and protect the gains that have been made by women 
over the last 18 years because they are really not at the table 
and they are not part of the negotiating process.
    But what I want to ask you about is something we had not 
talked about and that is the poppy trade. Opium poppies are 
Afghans' most valuable cash crop. They brought in $863 million 
last year.
    Afghanistan is the largest global producer. It accounts for 
82 percent of the world's production. We know how many lives 
have been lost as a result of being addicted to heroin. 
Afghanistan's production reached record highs over the last 2 
years except for a small dip because of the drought.
    And all our efforts over there have been unsuccessful. The 
special inspector general found that our alternative 
development programs were too short. They did not bring about 
lasting reductions in the cultivation.
    Sometimes they contributed to increased production. The DOD 
also ended a military counter narcotics campaign in 2017 that 
failed to yield results.
    Could you talk about how this played into the negotiation? 
What are our efforts now and what do they plan to be? Was poppy 
cultivation part of the conversation at all and why was this so 
unsuccessful?
    Ms. Wells. Quickly, just to clarify, Belt and Road is very 
real but in Afghanistan it is a slogan. The Chinese simply have 
not put money. They have just tried to lock down lucrative 
mining contracts but not follow through with investment of real 
resources.
    We share your concern on poppy, how it has criminalized the 
economy, the expanding role of opium production in undermining 
governance and transparency. It is fundamentally, though, I 
think an issue that is tied to security.
    Eighty to 85 percent of opium in Afghanistan is produced in 
areas that are controlled or under the contested or influenced 
by the Taliban.
    Ms. Titus. Right.
    Ms. Wells. That has been what has, I think, prevented the 
much more sustainable approaches to eliminating opium 
production including alternative livelihoods, crops--high-value 
crops that are more valuable than opium.
    Where we have had some success is in establishing some of 
the structures--the laws, the regulatory structures, the 
special police units, whether it is the counter--under the 
counter narcotics police.
    We have a sensitive investigation unit and the national 
interdiction unit. They are doing real seizures. But this is in 
the context of something that really fundamentally has to come 
out of an improved security environment that we do not have 
right now.
    Ms. Titus. Was this part of any of the negotiation with the 
Taliban? And this is their main source of revenue? What are we 
going to do about that in the future or are we just going to 
turn a blind eye to it?
    Ms. Wells. I cannot speak to what was said during the 
course of the negotiations but the Taliban have been very 
public about saying and pointing to their past record of having 
eliminated opium production. And so----
    Ms. Titus. But we know that is not true.
    Ms. Wells. They, for complex reasons immediately right 
before their downfall they did issue a fatwa against opium 
production that effectively reduced opium production in the 
areas that they controlled.
    We would welcome the Taliban issuing a fatwa today saying 
that opium production should be banned----
    Ms. Titus. I am sure we would.
    Ms. Wells [continuing]. In the areas that they control, 
which they have not done. So, this is all very cynical. But I 
do not want to suggest that it is only a Taliban problem. Drug 
money in Afghanistan is everywhere. It permeates everywhere. It 
criminalizes the broader economy. It is a distorting factor in 
Afghanistan's ability to develop as a self-sustaining nation.
    Ms. Titus. Do you want to speak to that from your point of 
view?
    Ms. Freeman. Well, from a development point of view, one of 
the alternatives is to look at creating a reflection, and what 
USAID has sought to do is to create improved markets, improved 
access, look at value chains, try to extend from out into the--
into the rural areas an ability to produce legitimate crops and 
get those to market in a timely fashion.
    Ms. Titus. Has that been successful?
    Ms. Freeman. That has been very successful. Whether it is 
drawing away from----
    Ms. Titus. How do you measure that success? How do you 
measure that success?
    Ms. Freeman. Whether it is drawing away from the opium 
trade, that I cannot tell you. In terms of improving 
livelihoods and improving people's incomes, yes.
    Ms. Titus. Thank you. Thank you, Mr. Chairman.
    Chairman Engel. Thank you, Ms. Titus.
    Mr. Lieu.
    Mr. Lieu. Thank you, Mr. Chair. Thank you, Ambassador Wells 
and Ms. Freeman, for being here. None of my comments or 
questions are meant in any way to criticize your dedicated and 
lengthy public service.
    We have had bipartisan failure in Afghanistan for over 18 
years across administrations. The Trump Administration is 
continuing that failure.
    I understand you are simply executing orders of the 
President. But I do want to get some facts out here to the 
American people.
    Ms. Wells, approximately how many U.S. service members and 
U.S. civilians have died in the Afghan war?
    Ms. Wells. About 2,400.
    Mr. Lieu. OK. With civilians, it's over 4,000. Is that 
correct?
    Ms. Wells. I actually do not have that statistic. But I 
take your data.
    Mr. Lieu. OK. About how many U.S. service members have been 
wounded in the Afghan war?
    Ms. Wells. Twenty-six thousand, sir.
    Mr. Lieu. So correct, over 20,000 at least. How many U.S. 
troops are currently in Afghanistan?
    Ms. Wells. Around 14,000.
    Mr. Lieu. In 2016, before Donald Trump took office, how 
many U.S. troops were in Afghanistan?
    Ms. Wells. Eighty-six hundred or 8,400.
    Mr. Lieu. So Donald Trump ran on a campaign of getting the 
U.S. out of endless wars, of getting us out of dumb wars in the 
Middle East. He has failed to deliver on that promise.
    In fact, he has increased troops in Afghanistan by 
approximately 70 percent. Do you know what the cost of how much 
the U.S. has spent in Afghanistan, Ms. Wells?
    Ms. Wells. I do not have an exact figure. I do not think we 
have been able to produce an exact figure. We talk about $30 
billion a year total in Afghanistan now.
    Mr. Lieu. Thank you. So according to Washington Post, it 
has been over $1 trillion. There is an article in the 
Washington Post saying Trump's Afghanistan troop increase adds 
to $1 trillion in war costs, and we have very little to show 
for this.
    We are still in a stalemate. There is no indication if we 
stay another 18 years that we are going to achieve any sort of 
victory.
    In fact, what ends up happening is because we keep killing 
civilians and other folks in Afghanistan, it makes terrorist 
recruiting that much easier.
    So I want to ask you about a Reuters article that came out 
today documenting that yesterday a U.S. drone strike in 
Afghanistan killed at least 30 civilian farmers. Are you aware 
of that drone strike?
    Ms. Wells. I have seen press reports that an Afghanistan 
strike may have produced civilian casualties. That is being 
investigated and looked into by Resolute Support Mission.
    If true, it would be very tragic. I would note that again, 
the civilian attacks or civilian casualties are made--happen 
more easily because of the fact that ISIS and Taliban immersed 
themselves in the civilian population, do not distinguish how 
they dress and themselves directly target civilians.
    Mr. Lieu. Thank you for that. We do have complete air 
superiority in Afghanistan, correct?
    Ms. Wells. Yes.
    Mr. Lieu. OK. And our drones can linger over a target for a 
fair amount of time, correct?
    Ms. Wells. Sir, I do not know whether the report that your 
mentioning is a drone attack. The reports I have seen have 
suggested that this was something that was--I do not know the 
details of the incident so I do not want to comment on it.
    Mr. Lieu. Sure. When I served on active duty U.S. military, 
one thing is I did is I briefed commanders on the law of armed 
conflict. As you know, intentionally targeting civilians is a 
war crime.
    It is also a war crime if it is a disproportionate use of 
force. So if you were to think that there may be one or two 
terrorists there and you are going to end up killing 30 
civilians, you cannot launch that strike either.
    So I look forward to the Administration providing us 
information as to if in fact this strike killed at least 30 
civilians what their purpose of that strike was and how this 
has happened when we have complete air superiority and our air 
assets can linger over targets for a fair amount of time.
    And all of this does bring me to how do we now conclude our 
failure in Afghanistan. So when is the next meeting that the 
Administration is going to have with the Taliban? Has that been 
scheduled?
    Ms. Wells. No. The talks are paused at this stage.
    Mr. Lieu. So not only----
    Ms. Wells. Excuse me. Suspended.
    Mr. Lieu [continuing]. Have we now had over 4,000 U.S. 
service members and civilians killed in Afghanistan, by your 
estimate 26,000 service members wounded, over $1 trillion spent 
on this war in Afghanistan, we are in a stalemate and the 
Administration has now zero strategy, zero scheduled talks, no 
ability to get us out of this quagmire--it is time to bring our 
troops home.
    I yield back.
    Chairman Engel. Thank you, Mr. Lieu.
    Is Ms. Wild here? Ms. Wild.
    Ms. Wild. I have questions for each of you. I only have 5 
minutes, as you know. I am going to be a little quick and just 
ask that you be circumspect in your answers.
    Ms. Freeman, to start, the United States has invested an 
enormous amount of human life, money, and time into the 
conflict and attempted peace building process in Afghanistan, 
as we all know.
    Since 2002, Congress has appropriated more than $132 
billion in aid for Afghanistan. More than 2,000 U.S. troops 
have lost their lives in Afghanistan and currently we have 
14,000 troops there.
    My question to you is this. How is the Trump Administration 
working to ensure that the investments the U.S. has made in 
Afghanistan, like building hospitals, schools, supporting 
NGO's, and advancing women's rights, is not lost if we withdraw 
from the country?
    And I ask that in the context of this. Particularly because 
the Trump Administration has not included the Afghan government 
in peace negotiations, how are we making sure that the progress 
we have made in Afghanistan will be maintained long term?
    Ms. Freeman. Thank you. I think that the most succinct 
answer to your question is the broad programming of 
sustainability and working on systems, which I was trying to 
highlight in my own testimony.
    It is not a matter of just the number of students that are 
trained. It is the infrastructure that is built. That 
infrastructure may be physical or it may be institutional in 
strengthening the systems within the government and I think we 
have a great deal of success to be shown in terms of 
strengthening internal systems to advance Afghanistan's own 
ownership of its development.
    The other area that I would point to in terms of 
sustainability is the development of stronger voices in 
Afghanistan to sustain themselves, going forward. The voices of 
women, the voices of the private sector, the voices of 
educators that will carry forward through time in terms of 
their expectations.
    Ms. Wild. Thank you. I am deeply concerned and I appreciate 
your response, and I think it is a good one. But I hope we do 
not negate the progress that we have helped build in that 
country and the sacrifices, particularly that our troops have 
made by pulling out with a plan in place to create and sustain 
lasting peace.
    I would like to turn to Ambassador Wells, and my question 
to you is this. We know that in July 2018 in an unprecedented 
move the Trump administration entered into direct high-level 
negotiations with the Taliban and without Afghan government 
representatives, and in doing so the Administration reversed 
longstanding U.S. position that any peace process would have to 
be Afghan owned and Afghan led and this, of course, hearkens 
back to the questions that I was asking Ms. Freeman.
    From close to a year the Administration held almost 
continuous meetings with Taliban representatives, and I am not 
going to go through what happened on September 11th because 
some of my colleagues have and we all know.
    But we know also that for decades the Taliban carried out 
violence against women and egregiously violated women's human 
rights.
    Afghanistan is ranked the worst place in the world to be a 
woman. Eighty-seven percent of their women are illiterate. 
Seventy to 80 percent of them are in forced marriages and 90 
percent have experienced domestic abuse.
    So, our President loves to refer to himself as a great 
negotiator and a great deal maker. But we have not seen any 
successful deals on behalf of the American people yet.
    And I am wondering--my question to you is this. When the 
Trump Administration engages in high-level talks for almost a 
year with the Taliban and without the Afghan government, how do 
we expect these negotiations to ultimately be successful and 
bring long-term peace?
    Ms. Wells. Congresswoman, I think it is a 
mischaracterization. We have been--we are in constant contact 
and constant engagement with the government of Afghanistan.
    We were working in parallel tracks as we discussed issues 
with the Taliban. We were discussing the same issues with the 
Afghan government in coming up with an agreed upon approach 
under this political framework.
    Ambassador Bass is there every day. General Miller is there 
every day. Ambassador Khalilzad has spent more week in 
Afghanistan over the last eight or 9 months, than I can 
calculate.
    And so we are very committed because the outcome of this 
initial set of conversations was to get to an inter-Afghan 
dialog--a negotiation, was to get the Afghans to sit down at 
the table, which the Taliban have refused to do over the last 
18 years. And we started to see that breakdown with the inter-
Afghan discussion that took place in Doha in July.
    So this was not about ignoring the government of 
Afghanistan, freezing it out of negotiations. To the contrary, 
it was creating the preconditions that would allow Afghans 
finally to sit down and begin to find the appropriate 
compromises to move forward to a unified government and peace.
    Ms. Wild. Thank you. My time is up. I just reiterate I hope 
we do not lose the progress that has been made by excluding 
important parties.
    Chairman Engel. Thank you, Ms. Wild.
    Mr. Burchett.
    Mr. Burchett. Thank you, Mr. Chairman, and thank you for 
allowing me to speak.
    Given that the Pakistani inter-service intelligence has 
long given support to the Taliban, is there a role that 
Pakistan must play in the negotiations with the Taliban and, if 
so, would Prime Minister Khan have trouble getting the 
Pakistani military to help?
    Ms. Wells. Pakistan does have a very important role in 
ensuring that negotiations both take place and are successful, 
and we have seen constructive support by Pakistan in helping to 
ensure that there was an authoritative negotiating team.
    Pakistan released Mullah Baradar from prison where they 
were holding him, and he then took over leadership of the 
Taliban negotiating group.
    We are working closely with Pakistan and Ambassador 
Khalilzad's consultations very much include and are based on 
the expectation that Pakistan will provide this support.
    Prime Minister Khan publicly has been forward leaning in 
his support for peace in Afghanistan. We appreciate the steps 
that he has taken and members of his government have taken to 
try to improve relations with Afghanistan, because improved 
Afghanistan-Pakistan relations are also going to be critical to 
a sustainable peace. But this is an area where we will continue 
to have expectations and asks of Pakistan.
    Mr. Burchett. Thank you, ma'am.
    In the 1990's, the Taliban--I believe they said that bin 
Laden and al-Qaida were not a threat to the U.S. How can we 
trust them now when they say that they will not allow foreign 
terrorist organizations on Afghan soil?
    Ms. Wells. There is no intention to trust and I think any 
peace agreement or any negotiations with the Taliban will be 
conditions based, and the United States will have to have 
confidence that our security will not be imperilled.
    Mr. Burchett. Say that again about trust. What was the 
wording?
    Ms. Wells. The agreement cannot be based on trust. It has 
to be based--conditions based and where we have confidence 
through verification, through means that our security is not 
being eroded as a result of a peace agreement.
    Mr. Burchett. So it is not really trust but verify. It is 
not really trust but verify.
    [Laughter.]
    Ms. Wells. Verify.
    Mr. Burchett. Yes, we need to verify. Yes, ma'am. Thank 
you.
    Given all the uncertainty with the Taliban negotiations, 
should the Afghan Presidential elections still be held or 
postponed?
    Ms. Wells. The Afghan elections are proceeding on September 
28th. We have long argued that the government of Afghanistan 
and the electoral bodies need to do everything possible to 
ensure that they are transparent and credible to the Afghan 
people.
    The United States has provided support for the elections 
through funding of the U.N. mission in Afghanistan. We have 
also provided technical assistance through USAID in developing 
protocols.
    I think certain steps have been taken that will--could 
improve some of the technical aspects of the elections this 
time around, including polling center-based registration lists 
which will make it less possible for industrial fraud.
    But at the same time, you have fewer polling stations that 
will be opening in this election compared to 2014 and, 
certainly, the Afghanistan electoral institutions are going to 
have to be able to respond to Afghans' concerns of the misuse 
of government resources and other efforts to influence 
elections.
    Mr. Burchett. OK. What are some ways to incentivize the 
direct Taliban Afghan government talks?
    Ms. Wells. I think that the--both sides have an interest in 
peace and what is remarkable is despite the incredible violence 
and just indiscriminate violence against civilians that has 
been inflicted by the Taliban, the Afghan people remain 
committed to trying to find a way forward and remain committed 
to a peace negotiation.
    Because as long as Pakistan is wracked by violence, you 
cannot achieve the security to create a normal state that is 
self-sustaining.
    And the Taliban--their interests, as I said before, I 
think, are motivated by desire to be seen as legitimate, to be 
able to engage on--in a way that they have not with the 
international community, to participate in a functioning 
government and in a country that is economically more 
prosperous.
    Mr. Burchett. Thank you, Mr. Chairman.
    Chairman Engel. Thank you, Mr. Burchett.
    Ms. Spanberger.
    Ms. Spanberger. Thank you to the chair. Thank you to our 
witnesses today.
    Ambassador Wells, I would like to start with a question for 
you. After 18 years of U.S. military involvement in 
Afghanistan, the country stands in a bloody stalemate.
    Thousands of American service members have lost their 
lives. Talks with the Taliban have broken down and the American 
public is war weary.
    As reconciliation and security efforts advance, I am 
particularly concerned that Afghanistan will again be used by 
international terrorist groups such as al-Qaida or Islamist 
State Khorasan to launch and plan attacks on the United States 
or our allies.
    As you have already discussed, if the previous rounds of 
talks had continued as planned, the Taliban was going to agree 
to preventing terrorist groups from using Afghanistan to plan 
and launch attacks.
    Yet, it is not clear that the Taliban would follow through 
on this pledge or even have the ability to rein in the numerous 
terrorist organizations.
    They have made and failed to keep similar pledges before. 
And so my question is what do you see as a realistic path 
forward to ensuring that Afghanistan is not right for terrorist 
groups to plan and launch cross-border terrorist attacks and 
how can we proceed with enforcing any agreement related to that 
type of promise?
    Ms. Wells. Again, I would say I think it is a bit of a 
mischaracterization to say that it is only been a bloody 
stalemate. I mean, we have a situation now where the Afghans 
are doing the overwhelming majority of the fighting.
    We have a situation where the Taliban do not control 
provincial capitals. They are not in control of the country or 
in control of the people.
    We have a situation where we have succeeded in ensuring 
that Afghanistan has not been used as a platform against us 
again. And so the baseline goal and reason why we went into 
Afghanistan I think we have upheld.
    America's security is going to be the foremost objective of 
any peace negotiation that we support and the President has 
spoken to that. The secretary has spoken to that. And that is 
why any peace agreement needs to be conditions based.
    I cannot give specifics now and I would leave it to further 
briefings if and when a peace negotiation resumes. But I think 
that the Afghan people and the Taliban and we agree that this 
is not a conflict that is going to be won militarily.
    So the question of how we get back to a sustainable peace 
process is one that is under active review by the 
Administration.
    Ms. Spanberger. And how much do you think the fact that 
Afghanistan has not been used as a platform to launch 
additional attacks against us or U.S. interests outside of 
Afghanistan--how much do you think that that is a result of the 
presence of our forces, my question being specifically if we 
were to move toward removing U.S. forces how does that 
significantly change the dynamic that has allowed us to achieve 
some of the stability that you just discussed?
    Ms. Wells. In the context of an active war against the 
Taliban, the presence of American and international forces has 
been critical.
    Ms. Spanberger. OK. And so then in thinking through a--the 
type of agreement that we could make with the Taliban and 
looking at what sort of enforcement would be possible, what do 
you see as potential levers for negotiation or potential 
successes for the type of enforcement that would allow us to 
ensure that Afghanistan cannot devolve into a place where 
terrorist networks are able to find save haven again and, 
potentially, plot against the United States?
    Ms. Wells. I think, as has been said publicly in a 
conditions-based agreement, what the Taliban want is the 
removal of forces and to be able to achieve a removal of forces 
there would have to be confidence on our part that the 
undertakings were being upheld by the Taliban and its members.
    I cannot hypothesize about what may or may not come out of 
a future agreement and what specific measures will be included.
    But I would just go back to the basic point the United 
States has the most capable and powerful military in the world. 
We are committed to protecting our citizens' interests.
    We are not without options.
    Ms. Spanberger. The challenge that I see, though related to 
the conditions-based discussions is if the Taliban want U.S. 
departure from Afghanistan then what is the next step that we 
take when in fact they are not complying with negotiated terms?
    As you see it, what would be our response if we have in 
fact removed forces? Where do we go from there?
    Ms. Wells. I cannot hypothesize about that scenario.
    Ms. Spanberger. Thank you for your time.
    Mr. Chairman, I yield back.
    Chairman Engel. Thank you, Ms. Spanberger.
    Mr. Levin.
    Mr. Levin. Thank you so much, Mr. Chairman.
    According to the United Nations' assistance mission in 
Afghanistan there were more civilian casualties in 2018 than in 
any other year since they began counting, and it was also 
reported that for the first time since the United Nations began 
documenting civilian casualties in Afghanistan more civilians 
were killed by Afghan government and American forces than by 
the Taliban and other insurgents.
    I do not think there can be a clearer sign that the U.S. 
military intervention there has failed to secure the Afghan 
people.
    Ambassador Wells, it is good to see you again. I want to 
ask you why should we expect that doing more of the same thing 
that we have done for the last 18 years will lead to a 
different and better outcome than these statistics suggest?
    Ms. Wells. First, I want to say that the U.S. military does 
everything possible to avoid civilian casualties. Nobody is 
more meticulous in its planning and as thoughtful in its 
efforts, and I contrast that to the enemy that we face that 
deliberately targets civilians, and we have seen that over this 
bloody last week of targeting of hospitals, targeting of 
election workers. And so the----
    Mr. Levin. Yes, it is horrifying. But do you dispute the 
statistics from 2018?
    Ms. Wells. I think, as I mentioned earlier in another 
response, we do question some of the methodology. I think this 
is an aberration and the----
    Mr. Levin. I hope you are right.
    Ms. Wells [continuing]. And the approach of the forces 
could not be more different. And so, I am very--I think we can 
have confidence and respect for the U.S. military's efforts to 
reduce civilian casualties and reduce the Afghan forces' 
civilian casualties.
    This is not a static or this is--this is not a static 
situation. There has been significant change over the last 18 
years and one of those significant changes is the fact that it 
is the Afghan forces who are doing the fighting and dying.
    We still suffer tragic losses and we suffered a tragic loss 
last week. But the numbers bear no resemblance to the beginning 
of this conflict and the height of this conflict.
    And, as time goes by what we have seen are more capable 
Afghan forces, more educated Afghanistan citizens, higher life 
expectancy, a more sophisticated population.
    Those are trend lines that absolutely work in our favor and 
speak very highly of our own values approach to supporting 
Afghanistan.
    Mr. Levin. All right. I want to talk about the non-State 
militias in Afghanistan like the Khost Protection Force that 
are trained, equipped, and funded by the CIA.
    These militias were the subject of a New York Times report 
in December that I would like to quote from. It said that the 
CIA-funded militias have, quote, ``operated unconstrained by 
battlefield rules designed to protect civilians, conducting 
night raids, torture, and killings with near impunity in a 
covert campaign that some Afghan and American officials say is 
undermining the wider American effort to strengthen Afghan 
institutions.''
    In July, Ambassador Khalilzad said that militias would be 
addressed in a peace deal. So, Ambassador Wells, I want to ask 
you did the proposed U.S. troop withdrawal from Afghanistan 
include withdrawing U.S. support for non-State militias funded 
by the CIA?
    Ms. Wells. I cannot speak to that, sir.
    Mr. Levin. Well, in an interview with the BBC this week the 
Taliban's chief negotiator said that the negotiation was, 
quote, ``the only way for peace in Afghanistan''--quote, ``from 
our side our doors are open for negotiations and we hope the 
other side also rethinks their decision regarding 
negotiation.'' If we are not talking about these things do you 
think we can achieve a sustainable solution?
    Ms. Wells. There is agreement that there is not a military 
solution. There is an agreement that there needs to be a 
politically negotiated solution.
    But there also has to be confidence that the Taliban, after 
the nine rounds of negotiations, are acting in good faith. And 
so as has been said publicly by the President and the secretary 
currently the talks are suspended. The Administration is 
reviewing options for moving ahead.
    Mr. Levin. And so just as a final question, it is sometimes 
hard to explain to my constituents what is going on in this 
complicated situation.
    How would you suggest that I explain to them why the 
President suspended negotiations at this point? What would--
what is the reason for it?
    Ms. Wells. We saw behavior that was inconsistent with the 
substance and conduct of the negotiations that have taken place 
over the last nine rounds and it was that inconsistent behavior 
that led to the decision.
    We would like to see the Taliban take actions that would--
that would make it possible to return to political 
negotiations.
    Mr. Levin. All right. Thanks. I yield back, Mr. Chairman.
    Mr. Keating [presiding]. Thank you.
    Mr. Malinowski.
    Mr. Malinowski. Thank you, Mr. Chairman.
    I want to--I want to thank you both for stepping up and 
being here. But I also want to say, quite bluntly, that it does 
not absolve Ambassador Khalilzad, who has been negotiating 
with--who has been talking to the Taliban for the last year and 
refusing to speak to the U.S. Congress, and I do not believe 
that a classified briefing meets his responsibility to explain 
to the American people what we are doing here.
    With that, let me ask you a few questions. The Taliban 
operates both in Afghanistan and Pakistan. Is that correct?
    Ms. Wells. Taliban has sanctuary in Pakistan.
    Mr. Malinowski. And yet, there is nothing in the draft 
agreement that commits the Taliban to break with al-Qaida or 
any other terrorist group that it may be cooperating with in 
Pakistan or, in fact, any of the 20 or so other FTOs beyond al-
Qaida and ISIS such as Lashkar-e-Taiba, the Haqqani network 
that operate in both Pakistan and Afghanistan. Is that correct?
    Ms. Wells. I cannot speak to the details of the--of the 
text. All I cannote is that it is conditions based with 
preeminence given to ending ties to terrorist organizations.
    Mr. Malinowski. Well, the only terrorist organizations that 
have been mentioned are those two and everything you have said 
suggest that their responsibility ends on Afghan soil. So, in 
fact, this does not really force the Taliban to break with 
terrorists.
    There is no cease-fire contemplated, no nationwide cease-
fire contemplated by the agreement. So apart from a few named 
places, under what was contemplated the Taliban would be able 
to continue terrorizing the Afghan people.
    And yet, as I understand it, we may go--were this process 
to continue, we could go below 8,600 troops. We could go all 
the way to zero troops in Afghanistan, even if there is no 
final inter-Afghan agreement, so long as we have, and if I may 
quote you, ``confidence that our security is not impaired.'' Is 
that a fair assessment?
    Ms. Wells. Again, I cannot speak to the details of the 
agreement that was being discussed or the political framework 
that was being discussed.
    All I can address are the principles that drove it and the 
foremost principle is American security. But that has to be 
also sustainable. What we are looking for is a sustainable 
solution, a sustainable peace in Afghanistan.
    Mr. Malinowski. Well, those are two very different things. 
If the condition is American security as narrowly defined by do 
not cooperate with al-Qaida or ISIS, then what that suggests is 
that what happens to the Afghan people in that scenario is 
immaterial.
    So long as we have that minimal commitment from the Taliban 
we could go to zero, which puts us in a position where we 
cannot even monitor or enforce that minimal commitment.
    You said we have been in constant contact with the Afghan 
government on this question. I am sure that is true. I know 
that is true.
    But any of us who have spoken to the Afghan government know 
that they do not agree with the basic framework of this 
agreement for precisely that reason, because it leaves them to 
the mercy of the Taliban so long as we are assured that they 
are not going to be cooperating with two of the 20 or more 
terrorist organizations that have safe haven in Afghanistan.
    My understanding is we are not willing to say--you are not 
willing to say to the Taliban right here right now that we will 
not go to zero if there's no inter-Afghan agreement. Is that 
correct? You cannot say that categorically.
    Ms. Wells. I am not here to comment on the specifics of a 
negotiation that I was not a part of. All I can discuss are the 
principles, and again, the principles are not--I think you are 
mischaracterizing the approach of the Administration to what we 
seek to achieve.
    Mr. Malinowski. Well, I am quoting--this is what I have 
heard from the Administration. And, again, if you are not able 
to speak to the agreement then that is exactly why Ambassador 
Khalilzad should be sitting in that chair right now. After 1 
year of talking to terrorists he should be willing to talk to 
the U.S. Congress.
    Look, all I am asking for here is honesty. There are 
different views about whether we should stay, whether we should 
go on both sides of the aisle.
    But what we are being sold here is not a potential peace 
agreement. What we are being sold here is a bedtime story to 
make us feel better about leaving Afghanistan.
    We are talking about this as if it is supposed to bring 
peace when in fact we know that the Taliban intends on 
continuing to fight, because their aim is not legitimacy.
    Their aim is power in Afghanistan, which they are not 
willing to share with the Afghan government as they have told 
us many times. We are being that this is about bringing our 
troops home when in fact those troops are not coming home. They 
will go to the Gulf.
    They will go to bases, potentially, in Central Asia so that 
we can maintain a forward presence in the region to continue to 
strike terrorists in Afghanistan.
    We will continue drone strikes but from a further distance, 
which means there will be more civilian casualties, and if we 
conduct counterterrorism raids, if we do it from a further 
distance it will be more dangerous to our troops.
    So I am asking for honesty. If we are going to leave let us 
be--let us simply say we do not have an interest in investing 
in Afghanistan anymore and we are going to leave them to the 
tender mercies of the Taliban.
    If we believe that is not right let's say to the American 
people that we have a long-term commitment here like we have in 
South Korea and Germany and other places.
    Pick one, and let's stop telling bedtime stories about what 
this is going to bring.
    Ms. Wells. I am delighted that there was an opportunity 
this morning for the committee to be briefed by Ambassador 
Khalilzad.
    Mr. Malinowski. But not the American people.
    Ms. Wells. This is not a negotiation of a withdrawal. It is 
a peace agreement, and I think what we are losing sight of is 
the overwhelming majority of Afghans who very much want to see 
America involved in supporting a peace process.
    Afghans do not want to fight to the last Afghan. They seek 
peace. And so this Administration is--has been creatively 
working toward that goal.
    Mr. Malinowski. They have no say in this process and you 
know perfectly well that they are terrified--the vast majority 
of Afghans--about where this is going.
    I yield.
    Ms. Wells. This is the only process that is producing a 
potential of direct conversations between the Taliban, Afghan 
government, and Afghan stakeholders.
    Mr. Malinowski. I yield.
    Mr. Keating. Mr. Phillips.
    Mr. Phillips. Thank you, Mr. Chairman, and to our 
witnesses.
    I want to start by echoing the sentiment of my colleague, 
Mr. Malinowski, relative to the lack of an appearance by Mr. 
Khalilzad. Terribly disappointing, and I hope that is something 
we can quickly rectify.
    Former diplomat and senior fellow at the Carnegie Endowment 
for International Peace, Dr. Ashley Tellis, recently said, 
quote, ``Any attempt at reconciliation through a negotiated 
bargain centered on the formal exchange of obligations as 
opposed to the quiet and progressive defection of insurgents 
would fail to deliver stability that the U.S. seeks.''
    Do you agree with that statement? I ask that of both of 
you.
    Ms. Wells. The Administration is exploring or has been 
exploring whether or not you can create a political framework 
that that produces the dialog that gives confidence that 
American security will be met.
    So I, obviously, would not preemptively agree with Dr. 
Tellis.
    Mr. Phillips. So why would we choose to enter negotiations 
with such little progress on the battlefield strategically? Is 
that something--is not that a question we should be asking?
    Ms. Wells. This is not a conflict that is going to be 
solved on the battlefield, and you have seen over the last 10 
years the number of troops and soldiers go up and go down.
    What has not been able to move forward is the conversations 
that need to take place between the parties--the government, 
stakeholders throughout Afghanistan society, which is a very 
complex one, and the Taliban.
    The assessment is that the Taliban are different than ISIS, 
that this has been a Pashtun nationalist insurgency whose, 
obviously, their tactics have become increasingly concerning 
over the last several years but that they yet remain committed 
to in Afghanistan and are prepared to engage in negotiations.
    That needs to be tested. And so with the work that has been 
done has been done to create the conditions where Afghans can 
actually for the first time sit down and begin to have those 
conversations.
    Mr. Phillips. Can you think of a precedent in which we 
ha've been successful applying this type of strategy?
    Ms. Wells. I think every war is unique. But, certainly, the 
American role is critical and essential in driving any process 
forward.
    And so I would focus on the fact that America has received 
the support of the--the neighboring countries for the most 
part.
    We have certainly been able to work productively with our 
like-minded partners. Ambassador Khalilzad has been able to 
work with Russians and the Chinese because, fundamentally, this 
is about interests and the region does have, to greater or 
lesser degrees an interest in Afghanistan stabilizing.
    Mr. Phillips. Let's speak about interests. You speak of 
Russian and Chinese interests. How would you articulate those 
relative to Afghanistan right now?
    Ms. Wells. I think both countries are concerned by the 
prospect of the terrorist situation in Afghanistan worsening 
and, to that extent, we can have a focussed conversation about 
how to move forward in advancing peace.
    I am not going to suggest that they do not have other 
motivations. But, again, being able to be able to exploit the 
fact that both countries are concerned about what ISIS 
represents, that the problem in Afghanistan can get worse as 
well as get better, is what allows us to and what has allowed 
us to organize very dynamic productive international gatherings 
and diplomatic architecture in support of a peace process.
    Mr. Phillips. So you consider the Chinese and Russians at 
this stage to be part of the solution?
    Ms. Wells. I think that if important regional countries do 
not support peace it will be hard to achieve a peace agreement.
    Mr. Phillips. Well, but that is different than being part 
of the solution are they currently----
    Ms. Wells. We have been working with the countries because 
we do believe that their support will be helpful in advancing a 
peace agreement.
    Mr. Phillips. OK. Thank you, Ambassador.
    I yield back my time.
    Mr. Connolly. Actually, would my friend yield to me for a 
second?
    Mr. Phillips. Yes, I absolutely would, Congressman.
    Mr. Connolly. I thank my friend.
    Ambassador Wells, this eerily has the resonance of the 
Paris negotiations between Henry Kissinger and Le Duc Tho on 
the end of the--on China negotiating the end of the Vietnam 
War.
    And pledges were made. That was a peace agreement, too, 
allegedly. Pledges were made not to--for the North Vietnamese 
not to invade the south. Promptly ignored, and we turned a 
blind eye to it, making it look like what Mr. Malinowski 
indicated--a bedtime story, not even a fig leaf.
    Can you assure us that is not what we are looking at here--
that this is different?
    Ms. Wells. President Trump is seeking peace--a negotiated 
political settlement. He is not seeking a withdrawal agreement.
    Mr. Connolly. That is a heck of a reassurance. I am sure 
every American can take that to the bank and feel comforted.
    [Pause.]
    Mr. Keating. Does the gentleman yield back?
    Mr. Connolly. Oh, sorry. It was--it was Mr. Phillips' time 
and----
    Mr. Phillips. And I do yield back.
    Mr. Connolly. Thank you, Mr. Chairman.
    Mr. Keating. Thank you.
    Just briefly, we have discussed at different times the role 
of women in negotiations. The Afghan government is not 
involved. Women are not part of that.
    We know that the Afghan government, to my knowledge, is 
trying to include in the information that is relayed to them 
women as part of that agreement.
    But where do you envision going forward? The role of women, 
even in negotiations such as they are, not directly, but also 
going forward should we move forward with this agreement, 
really trying to put something in the agreement that guarantees 
so many of the gains of women in society that have been there 
since our involvement in Afghanistan and also considering the 
view that the Taliban has to women?
    Ms. Wells. How Afghans govern themselves needs to be 
determined by Afghans and so, obviously, what we hear from the 
Afghan government and from non-Taliban members of Afghanistan 
society is their commitment to the gains of the last 18 years--
the importance they attach to the constitutional rights 
including the rights of women and girls--and that's backed up 
by polling, which consistently shows every year an increasing 
number of Afghans who support education, who support women's 
participation in the work force, who support women's voting. A 
third of all candidates in the parliamentary elections were 
women.
    So I think we have profoundly influenced the development of 
Afghanistan society in a very positive way and those gains--
Afghans are going to have to fight and preserve those gains in 
a dialog or in a negotiation with the Taliban.
    What we can be very crystal clear about, and I think you 
will see this in the donor meeting that is happening in London 
and other sessions that will happen with international donors 
is that for Afghanistan to enjoy the support, to receive the 
benefits of being a member of the international community it 
will have to uphold these fundamental rights and that's the 
power, I think, that we have or the greatest power that we have 
is that you are not going to get assistance, you are not going 
to get foreign direct investments, you are not going to get the 
respect of the international community if you seek to repress 
or put women back in the home and out of schools.
    Mr. Keating. I have sponsored legislation that, hopefully, 
will soon be coming forward, to say that if there are other 
types of resources, going forward, that the U.S. is going to 
supply to the Afghan government that those guarantees for women 
remain in place. Is that something you agree with?
    Ms. Wells. All of our programs have embedded in them 
women's participation and support for women's rights in 
Afghanistan. It's an operating principle. I think Karen can 
speak to that.
    Mr. Keating. Yes, Ms. Freeman?
    Ms. Freeman. Thank you. I have been waiting for that moment 
for a long time.
    Yes, in every single program that we have there is--there 
is a requirement for the inclusion of women in those programs. 
In particular and with respect to the current question at hand, 
we have been actively working with civil society and women's 
business chambers, et cetera, to help them to improve their 
negotiating skills, to help them to hone their messages, their 
expectations, to be realistic and pragmatic about the way 
forward, and to ensure that when and if they do have the place 
at that--at that meeting that they will be ready for it.
    Thank you.
    Mr. Keating. Well, thank you, and I hope that this 
committee, moving forward very shortly, will be able to go 
forward with that and put additional safeguards to protect the 
gains the women and girls have certainly been advantaged from 
in Afghanistan.
    I would like to thank you and I would like to thank the 
panel for what was a very lengthy hearing this morning, and 
thank you for taking the time to do that.
    We will pause just briefly so that the staff can reset the 
witnesses for the second panel. Thank you again.
    [Pause.]
    Mr. Keating. The committee will reconvene. I would like to 
introduce our second panel and thank them for their patience 
this morning, which, indeed, was, after a very extensive first 
panel hearing.
    Ambassador James Cunningham is a senior fellow at the 
Atlantic Council's South Asian Center and an adjunct faculty 
member at Syracuse University's Maxwell School.
    He served at the State Department for decades in a wide 
range of roles, capping his distinguished career with his time 
as Ambassador to Afghanistan from 2012 to 2014.
    He is a member of the Council on Foreign Relations, the 
Asia Society, and the American Academy of Diplomacy. Thank you 
for being here, Ambassador.
    Ms. Laurel Miller is the director of the Crisis Group's 
Asia Program, where she leads the organization's research, 
analysis, and policy advocacy dealing with that region.
    From 2013 to 2017 she was the deputy and then acting 
special representative for Afghanistan and Pakistan in the 
State Department. In her previous service at the department 
worked on numerous issues including peace negotiations in 
Bosnia. She also served in the staff of the National Security 
Council. Welcome, and thank you again, Ms. Miller.
    Mr. Thomas Joscelyn is a senior fellow at the Foundation 
for Defense of Democracies and the senior editor of FDD's Long 
War Journal.
    He was--he has worked as a trainer for the FBI's 
counterterrorism division and he has written wildly on 
counterterrorism and issues related to counterterrorism.
    I would like to welcome to you all. Without objection, the 
witnesses' prepared testimony will be made part of the record 
and I will know allow the witnesses to testify for 5 minutes 
each to summarize their testimony.
    Let's start with Ambassador Cunningham.

  STATEMENT OF THE HONORABLE JAMES B. CUNNINGHAM, NONRESIDENT 
       SENIOR FELLOW, SOUTH ASIA CENTER, ATLANTIC COUNCIL

    Mr. Cunningham. Thank you, sir. I appreciate the 
opportunity to be here today.
    While the specifics of the deal negotiated by U.S. Special 
Representative for Afghanistan Reconciliation Khalilzad remain 
unknown, its apparent elements raise serious concern about 
failure and its application.
    Now that President Trump has called a halt to the 
discussions with the Taliban, the opportunity exists, if the 
Administration will take it, to course correct and seek a 
better deal that will lead to a political agreement ending the 
conflict, the goal which President Trump correctly set 2 years 
ago.
    A flawed deal on withdrawal of U.S. forces--one not 
grounded in the context of an actual peace agreement--risks the 
collapse of Afghanistan into chaos, the return of the 
oppressive and extremist Taliban emirate, and the growth of the 
Islamist terrorist threat to Western security and values.
    The American Afghan peoples and our many international 
partners in Afghanistan deserve better.
    One side negotiating against a deadline is at a severe 
disadvantage when the other is not and Ambassador Khalilzad had 
been operating under extremely complex conditions.
    But an agreement which fails in fact to open the way to 
peace for Afghanistan will be a defeat for U.S. leadership and 
values and sacrifice unnecessarily U.S. and Afghan interest in 
stability and security in that troubled region.
    Certainly, a discussion with the Taliban about ending the 
conflict is to be welcomed. But hope for an inter-Afghan dialog 
is not a strategy and there is little to suggest that a Taliban 
version of peace would be acceptable to the vast majority of 
Afghans or to the international community.
    Taliban representatives have told other Afghans that the 
United States is defeated and that they will restore the 
Islamic Emirate.
    While they suggest that the Emirate would be less severe 
and barbaric, there is little doubt what that would mean for 
today's Afghanistan nor of the risks that outcome would pose 
for outcome women.
    Negotiations should be resumed as soon as possible but on a 
different basis geared to actually ending the conflict. A sound 
deal with the Taliban will involve the Afghan government. It 
will as a first step end the violence by making the discretion 
of U.S. withdrawal contingent upon a cease-fire which ends the 
killing of Afghans.
    While forces can be reduced based on conditions as a cease-
fire takes hold, it will make a durable peace agreement between 
the universally recognized Afghan government and the Taliban, 
the sine qua non for the ultimate withdrawal of international 
forces.
    That negotiation, in turn, must take into the account the 
reality, as demonstrated by the horrific ISIS bombing of a 
Kabul wedding hall last month, that future Afghan governments 
will likely require international assistance in combating 
terrorism.
    They will also without doubt require significant 
international donor support for a peace agreement. A new 
Taliban emirate will be deserving of neither.
    There has been much discussion in the past weeks about the 
futility of continued U.S. engagement in Afghanistan and 
American fatigue, and calls for withdrawal often without 
addressing the consequences.
    Peace negotiations on the terms we, most Afghans, and our 
international partners would seek will be difficult but not 
impossible to create.
    We have not adequately tested the proposition which 
requires a complex, diplomatic, and military effort and 
continued support for the Afghan Security Forces.
    We have long recognized that a military solution is not in 
the offing, but a peace process does require an adequate 
military instrument in support of a multilateral multifaceted 
high-level diplomatic campaign to set the conditions for 
negotiations.
    The irony of where we are today is that President Trump's 
South Asia strategy announced 2 years ago corrected the 
shortcomings which handicapped President Obama's efforts to 
withdraw U.S. forces and establish a peace process.
    Knowing that President Obama had a time line for bringing 
our troops home, the Taliban had no incentive to negotiate.
    In 2017, President Trump agreed to restore military 
capabilities needed to strengthen the American train and assist 
and counterterrorism missions and to focus on creating 
conditions for negotiations.
    This strategy for peace correctly aligned three elements 
for getting the Taliban to genuine negotiations: bolstering the 
Afghan Security Forces, basing the reduction and eventual 
withdrawal of military forces on conditions and not artificial 
deadlines, and focusing on Afghanistan's regional context, 
particularly on ending the nefarious role of Pakistan.
    That strategy was aimed at success, a political settlement 
including respect for the Afghan constitution and its 
protections for human rights, women, and a free media. It 
appears to be coming apart.
    The reestablishment of unrealistic U.S. deadlines will 
again undercut the Afghan Security Forces, deadlines, and the 
ever present threat of withdrawal absent an agreement, 
encourage Taliban intransigence, speculation about an interim 
government which, hopefully, is now moot risked the demise of 
democracy in Afghanistan.
    Washington appears yet again to have allowed Pakistan to 
avoid concrete action to change the calculations of the Taliban 
leadership in Pakistan.
    Afghanistan is neither a failed state nor to be dismissed 
as a forever war. Afghanistan is a struggling democratic 
Islamic partner in the generational conflict between extreme 
Islamist ideology and terrorism, and the civilized world to 
which most people, including Muslims, aspire.
    Our 18-year effort in Afghanistan has had several distinct 
phases and mistakes have surely been made. But yielding to 
fatigue rather than correcting our strategy would be the 
greatest mistake of all.
    The costs of engagement in Afghanistan are much lower than 
in the past, can be lower yet, and are sustainable. As with the 
cold war, staying power will be required to win the ideological 
conflict with Islamist extremism in which Afghanistan is a 
chapter.
    We can certainly be smarter and more effective. But as with 
Iraq, the cost of premature withdrawal from Afghanistan with 
the prospects of peace unsecured will be much higher.
    Among the more important of those costs will be the 
accelerated erosion of the notion that the United States is a 
reliable and durable partner when there is a price to be paid 
for leadership and defense of U.S. values.
    Thank you.
    [The prepared statement of Mr. Cunningham follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Keating. Thank you, Ambassador.
    Ms. Miller.

STATEMENT OF MS. LAUREL MILLER, PROGRAM DIRECTOR, ASIA, CRISIS 
 GROUP, FORMER STATE DEPARTMENT ACTING SPECIAL REPRESENTATIVE 
                  FOR AFGHANISTAN AND PAKISTAN

    Ms. Miller. Thank you, Congressman Keating, for your 
endurance today and my thanks to the committee for inviting me 
to this important hearing.
    I have been asked to assess the Administration's efforts to 
secure a peace deal. I will summarize my written statement, 
briefly reviewing U.S. policy options and explaining why the 
negotiations President Trump declared dead last week should be 
revived.
    Those talks produced a draft U.S.-Taliban agreement that, 
according to both sides, was ready to be signed. The U.S. has 
three basic options.
    First, the withdrawal option. The U.S. could plan and 
execute a pullout of all U.S. forces. The conflict would 
continue and it would probably intensify and become more 
chaotic.
    There is a strong chance the anti-Taliban side would 
fracture. How quickly that would happen would depend on whether 
the government in Kabul continued to receive the foreign 
funding on which it very heavily depends.
    Second, the stay the course option. The U.S. could keep the 
current or somewhat reduced number of troops, continue fighting 
the Taliban alongside the government, continue operations 
against the Islamic State branch, and occasionally other 
terrorist groups from within Afghanistan.
    The war, currently the deadliest in the world, would remain 
the bloody stalemate that it is today and that many senior 
American military officers have said it is, one that has been 
eroding in the Taliban's favor over several years.
    Keeping U.S. troops in Afghanistan would continue feeding 
the Taliban narrative of foreign occupation that they use to 
recruit. Staying the course means perpetuating the conflict 
with no foreseeable end.
    Third, the negotiation option. The U.S. could try to 
negotiate an end to the war and to the U.S. military presence. 
American diplomats have engaged in about 9 years of waxing and 
waning efforts to launch a peace process. But only this year 
did the U.S. put pursuing a peace deal at the center of its 
policy.
    The third option is the only one with the potential to 
reduce violence in Afghanistan and enable the U.S. troops to 
withdraw in permissive conditions.
    It is also the option with the best chance of preserving 
Afghanistan's social and development gains. To be clear, none 
of these options has the realistic potential to result in 
military victory for the U.S. and its Afghan allies. Neither of 
the first two options would enable the Afghan government to 
become self-sustaining in its fight against the Taliban at any 
foreseeable time and only the negotiation option aims for a 
reduction of violence.
    Some have criticized the Administration for negotiating 
exclusively with the Taliban, supposedly cutting out the Afghan 
government. It's understandable this approach is deeply 
frustrating to many Afghans and, frankly, it's distasteful to 
many in Washington.
    The U.S. decision to negotiate first with the Taliban prior 
to talks among Afghans was a concession to the Taliban's 
stubborn insistence on that sequence.
    The U.S. for many years resisted that sequencing and the 
cost was no peace process. It is worth underscoring that the 
U.S. already tried and failed to deliver the more desirable 
kind of peace process with the Afghan government at the table 
from the outset and with an early cease-fire.
    No evidence suggests the Afghan government on its own could 
launch this preferred form of peace talks. Certainly, the U.S. 
has not stood in the way.
    But it is crucial to recognize what a U.S.-Taliban deal 
would and would not be. It would cover a limited set of 
issues--the withdrawal of U.S. troops in exchange for Taliban 
commitments to prevent Afghanistan being a safe harbor for 
terrorist groups.
    The deal would not be a peace agreement. There is no deal 
between the U.S. and Taliban that could bring peace or address 
governance, women's rights, and other issues.
    The deal would be the first step toward peacemaking. It 
would condition a gradual U.S. withdrawal, which the Taliban 
want, on the Taliban entering negotiations with the Afghan 
government and other power brokers.
    The reward is clear. The deal would open the door to an 
Afghan peace process. Afghan talks, once started, might stall 
or fail for many reasons. The gap between the parties' 
political visions might prove too great.
    Internal divisions on each side might prove too difficult 
to overcome. If negotiations fail, the U.S. will still be in a 
position to choose either of the first two policy options I 
described earlier.
    After nearly 18 years of prioritizing military action and 
failing to defeat the Taliban, the U.S. has spent only 1 year 
putting peace efforts at the forefront, and in that time it 
appears to have come close to clinching a deal that would lead 
to an Afghan peace process and allow for the withdrawal of U.S. 
troops. The U.S. should not abandon this effort now.
    [The prepared statement of Ms. Miller follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Keating. Mr. Joscelyn.

STATEMENT OF MR. THOMAS JOSCELYN, SENIOR FELLOW, FOUNDATION FOR 
 DEFENSE OF DEMOCRACIES, SENIOR EDITOR, FDD'S LONG WAR JOURNAL

    Mr. Joscelyn. Thank you for having me here to testify again 
today. I am going to just go through this very quickly.
    I agree that one of the main critiques of the process that 
the Trump Administration went through in these talks basically 
excluded the Afghan government.
    You can see in a tweet I reproduced in my written testimony 
that on March 12th of this year Ambassador Khalilzad said 
explicitly that once a deal is finalized, exchanging a troop 
withdrawal for these supposed counterterrorism assurances from 
the Taliban, then the inter-Afghan negotiations process would 
start. That is a crucial mistake.
    Obviously, if you are going to--if you are going to try and 
actually launch a peace process, having American troops in 
country are your biggest bargaining chip to try and get that 
launched. Giving it away at the outset in exchange for the 
Taliban's words makes no sense to me.
    And I want to talk a little bit today about why the 
Taliban's words should not be trusted when it comes to 
counterterrorism assurances.
    There was some skepticism on the earlier panel on this 
regard and I wholly endorse that skepticism. I am going to run 
through five key issues in that regard, very quickly.
    First, the Taliban has not come clean about its past at any 
point in time. In July, the Taliban released a video in which 
they said that 9/11 was a heavy slap on their dark faces. It 
was the consequence of their interventions policies and not our 
doing.
    In other words, they were justifying 9/11. They did not 
blame al-Qaida. They did not renounce their decision to harbor 
al-Qaida prior to 9/11. They said it was a result of our 
policies, which is a talking point they have had since 2001.
    In addition, in August, Suhail Shaheen, who has 
participated in the talks in Doha as a chief Taliban 
negotiator, said he did not know who did 9/11. He did not know, 
and if we have evidence of this then maybe we can bring that 
forward and we can try and prosecute it.
    Well, I will just say this. We know who did 9/11, right, 
and you can see in my testimony--and I have excerpted quite a 
few parts of this report--the 9/11 Commission Report--showing 
the Taliban's complicity and safe haven for al-Qaida and how 
crucial that was for al-Qaida in the runup to 9/11, and there 
is a number of reports and citations in my written testimony to 
this in that regard. So we do not need Suhail Shaheen to tell 
us we do not know who did it.
    But the key point there is if they are not willing to come 
clean about the past, why are you willing to believe what they 
are saying about the future? Why are you willing to believe 
that their assurances, going forward, are really firm?
    Second point--in July 2016, Ambassador Khalilzad testified 
before this committee and during that hearing he actually 
highlighted the fact that Ayman al-Zawahiri, the head of al-
Qaida, had sworn his personal allegiance to Haibatullah 
Akhundzada, who is, basically, the supreme leader and they call 
him Amir of the Faithful for the Taliban.
    And Ambassador Khalilzad said that that showed that the 
relationship continues. We agree. I had reported on that about 
a week or two earlier.
    And as far as I can tell, there is no evidence that 
Akhundzada to date is going to renounce Zawahiri's oath of 
allegiance or al-Qaida.
    And as part of any talks that--you heard a lot in the first 
panel about how there's assurances from the Taliban about 
breaking with al-Qaida and restraining them and that sort of 
thing.
    Well, here is a very concrete example of what the Taliban 
could do in that regard and should do in that regard if you are 
going to actually start to believe them, which is that their 
leader, Haibatullah Akhundzada, should disown Zawahiri's oath 
of allegiance.
    Very quickly, third point--the No. 2 of the Taliban is a 
guy named Sirajuddin Haqqani, and we have tracked Siraj Haqqani 
for a long time and it took a number of years to get the 
Haqqani Network designated as a terrorist organization by the 
U.S. Government.
    That network was designated in part because the Haqqani 
Network remains closely allied with al-Qaida throughout its 
history, going back from the 1980's to this day.
    Siraj Haqqani is not only the number-two in the Taliban but 
actually oversees the Taliban's war machine across Afghanistan. 
There is a lot of evidence in my written testimony about how 
the Haqqanis are intertwined with al-Qaida. There is a lot more 
I could say in that regard.
    I have seen no evidence that Siraj Haqqani was going to 
break with al-Qaida or anybody in the Haqqanis--where he is 
going to do that.
    No. 4, al-Qaida in the Indian Subcontinent--this is 
highlighted in my testimony as well--was created in 2014. There 
is plenty of evidence that AQIS, as it is known, is fighting 
alongside the Taliban's members throughout the country.
    Al-Qaida and AQIS members serve as religious and military 
instructors for the Taliban. They remain embedded in the 
Taliban. In fact, a Special Inspector General Report submitted 
to Congress earlier this year highlighted the fact that 
actually many--according to this report, many al-Qaida members 
are actually dual al-Qaida and Taliban members. That is how 
integrated they are.
    And so a lot of times you cannot even tell who is an al-
Qaida guy and who is a Taliban guy. Believe me, I am a nerd who 
tracks this stuff. That is true. Sometimes you cannot tell who 
is who. But that is how intertwined they are.
    And fifth, in terms of counterterrorism assurances from the 
Taliban, there are--there is a sort of a constellation of 
Central Asian, Uighur, and Pakistani jihadi groups fighting 
under the Taliban's banner in Afghanistan.
    I see no reason to believe the Taliban has agreed to 
restrain them in any meaningful way. We are talking about Uzbek 
groups like Islamic Movement of Uzbekistan, Islamic Jihad 
Union. We are talking about the Turkistan Islamic Party, which 
fights in Syria and Afghanistan.
    We are talking about Lashkar-e-Taiba. The U.N. reports I 
cite in my testimony all document their presence in Afghanistan 
under the Taliban's banner, and I find it hard to believe that 
the Taliban will restrain all of them.
    Thank you.
    [The prepared statement of Mr. Joscelyn follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Keating. Thank you.
    Mr. Phillips.
    Mr. Phillips. Thank you, Mr. Chairman, and to our 
witnesses.
    Mr. Joscelyn, I will start with you. Clearly, from your 
testimony, you have little faith or confidence in the Taliban 
being trustworthy, for good reason.
    So what should we do, in light of the fact that they are 
not, in your estimation? What would be in our best interests?
    Mr. Joscelyn. I have no problem with trying to bolster a 
process that includes the Afghan government in the talks and 
insisting on that from the go.
    My main problem with what happened here was, one, I think 
there was a lot of credulity when it came to the Taliban's 
words on counterterrorism assurances from Ambassador Khalilzad 
and others, and two, the Afghan government, clearly, did not 
have a formal seat at the table.
    You heard Ambassador Wells talk about how some members of 
the Afghan government were able to take part in talks but what 
in a personal capacity, not as formal representatives of the 
U.S.-backed internationally legitimate Afghan government.
    So if you are going to go down that path, then it is fine, 
but as long as you are insisting that the Afghan government is 
part of any legitimate peace process.
    Mr. Phillips. OK. Thank you.
    Ms. Miller, I know you have been involved in peace 
negotiations in Bosnia, Kosovo, and Macedonia. In general 
terms, what does a good peace negotiation look like and what 
does a good agreement look like?
    Ms. Miller. It would have been my preference and my 
recommendation that the peace process should have included the 
Afghan government, the U.S., and the Taliban at the table 
simultaneously from the start.
    However, that was the format that the United States long 
tried to pursue. I was personally involved in efforts to try to 
get the peace process started that way.
    But it did not work. The Taliban refused and it is a sad 
fact that the Taliban has leverage in this equation. So as I 
said in my statement, it was a concession and it was--but I 
think an unfortunately necessary concession to split the peace 
talks into two separate tracks--a U.S.-Taliban track followed 
by an intra-Afghan track as it is now called.
    In terms of what a peace agreement could actually look 
like, the preliminary agreement between the U.S. and the 
Taliban is only setting the stage for a potential peace 
agreement and a peace process.
    An actual peace agreement among the Afghan parties is going 
to have to address a wide range of issues including political 
arrangements for Afghanistan, security arrangements for 
Afghanistan, implementation measures, verification measures.
    And so it will be complex and it will take time to 
negotiate that. And, frankly, the U.S.-Taliban agreement is 
only useful insofar as you actually get to that second stage. 
It does not, as I said, bring peace to Afghanistan nor is it 
actually necessary for the United States to negotiate with the 
Taliban the terms of its withdrawal.
    If all the U.S. wants to do is withdraw, it does not need 
to negotiate that with anyone and I would agrue that 
counterterrorism assurances in that context are meaningless.
    Those only become meaningful if you have the second stage 
of a peace process and you are able to form a consolidated 
Afghan government that brings the Taliban into the political 
fabric.
    I would just add to that I think we have a little--to be a 
little bit cautious in painting--I have no disagreement with 
the negative characterizations on the whole of the Taliban. But 
I think we need to be careful not to paint this in black and 
white terms.
    There are plenty of non-Taliban Afghans including some who 
are closely aligned with the Afghan government who also have 
very conservative viewpoints on social issues and, frankly, who 
have a past history of very close involvement with al-Qaida. 
With al-Qaida, I repeat.
    It is a very--it is a complicated picture that is not just 
a pure black and white situation. I hope I answered your 
question.
    Mr. Phillips. And with--in your past negotiations are there 
any that are analogous to this current dynamic that we have in 
Afghanistan that you can point to?
    Ms. Miller. I would say the--in general terms, yes. But I 
do not think that there is a clear and obvious template for 
this and I have looked at--I have done research on a sort of 
comparative analysis of other peace agreements and peace 
processes around the world compared to the situation in 
Afghanistan and there is no one situation you can point to.
    I think what you can say is that one of the factors that 
makes peacemaking in Afghanistan much more difficult than in 
other circumstances is that it is a stalemate--that you do not 
have--this is not Colombia where the government was 
overwhelmingly more powerful than the FARC.
    This is not a situation like Bosnia where the outside 
powers that were backing the inside powers really had the say 
and decided they were going to go with a peace process and NATO 
was able to apply overwhelming force to the situation.
    This is more complicated because--because it is a stalemate 
and neither side has truly come to terms with their own ability 
to succeed or fail militarily.
    Mr. Phillips. Indeed. I am out of time but I know there is 
not a long line behind me. Maybe I will have another chance in 
a few moments.
    Thank you.
    Mr. Keating. Thank you, Mr. Phillips.
    President Trump said the peace talks are dead. Do you 
believe they are dead, Ambassador?
    Mr. Cunningham. I believe they are not dead and they should 
not be dead.
    Mr. Keating. Ms. Miller, do you believe the President when 
he says the peace talks are dead?
    Ms. Miller. I believe that President Trump has shown 
remarkable agility in being able to change his positions 
rapidly and so I think it certainly--there is a lot of 
opportunity here to resuscitate the peace process. It may take 
a little time and some face saving in order to do it.
    Mr. Keating. Mr. Joscelyn, do you think that--do you agree 
with the President, that the peace talks are dead?
    Mr. Joscelyn. I do not know. All I can say is that I know 
from the outset I think it was very clear the President has 
wanted a full withdrawal or something close to it and that sort 
of was the framework for the entirety for the talks.
    Mr. Keating. I would say the fact that any of you or 
Members of Congress cannot answer that question presents a 
problem with the talks. We do not even know if they are dead or 
not or if they are there. So that is the status of it.
    Let's assume we go forward, whether they are suspended, 
whether we begin anew at some time.
    Ambassador, I thought you brought a very important point 
forward. If that is going to happen and we--whatever term you 
want to use--Lazarus appears and these are no longer dead, the 
importance of while these negotiations are going on being able 
to maintain a cease-fire I think is critical. What is your 
opinion?
    Mr. Cunningham. I would--I would think it is important to 
get to a cease-fire as quickly as possible, particularly given 
the ongoing campaign against Afghan civilians being waged by 
the Taliban as we are talking about creating a peace process.
    This is, obviously, leverage for the Taliban. They will try 
to use military force and terrorism to enhance their position.
    But as we go about resetting this, I would hope that there 
would be a serious effort to draw a clearer line between this 
discussion and the actual negotiation of peace than I think 
exists--you have a better understanding now of the agreement 
than we do because you have been briefed and we have not. But 
there are several----
    Mr. Keating. Well, we do not know if the agreement's alive.
    [Laughter.]
    Mr. Cunningham. The agreement needs to be adjusted, I 
think. But the goal needs to be kept in mind. The agreement is 
really--as Laurel said, the agreement is kind of a key to 
getting into a peace negotiation.
    My problem is it is not clear that that key is going to 
work and that it is strong enough.
    Mr. Keating. Right. Well, here is another point, and Mr. 
Joscelyn mentioned the Haqqanis. Ambassador, you mentioned 
Pakistan. I mean, it seems like these factors may not be front 
and center in some of these negotiations and with that kind of 
discussion, how inhibited is our ability to proceed?
    Mr. Cunningham. I think our ability is gravely inhibited.
    Mr. Keating. Mr. Joscelyn.
    Mr. Cunningham. The U.S. has a key role to play here.
    Mr. Joscelyn. I would suggest you look at Ambassador 
Khalilzad's personal Twitter account before he became a Special 
Representative and you will see that he was very forthright 
about Pakistan's role in harboring and sponsoring Haqqanis and 
others who are directing the attacks in Afghanistan, and that 
is an issue that I do not think is going to be solved.
    Mr. Keating. And I would just suggest one other thing. If 
we are going to reset or whatever might happen, words count 
when you are dealing diplomatically in negotiations.
    And I personally think--and if you have any comments in 
this regard--instead of talking about a U.S. withdrawal we 
should be talking about Afghan and--the Afghan government being 
able to negotiate our presence involved. It might sound like 
semantics but I do not think it is.
    Ambassador.
    Mr. Cunningham. I think that is a good point, and I do not 
exclude at the end of this process, which will take a lot 
longer than anybody would want--I would not exclude that there 
would be an agreement on an enduring U.S. presence--military 
presence in Afghanistan, a much lower level that would be 
focused on a counterterrorism mission.
    There is no reason--as I hinted at in my statement, there 
is no reason to think that a future Afghan government, even if 
constituted under a peace agreement, is going to have the 
capability on its own to deal with terrorism within Afghanistan 
and the region.
    Mr. Keating. OK. I only hope that any further negotiations 
have the tenacity of Mr. Phillips. He is still here, and he 
wanted to--I will allow him to have the last few minutes to ask 
some more questions.
    Mr. Phillips. Thank you, Mr. Chairman.
    Ambassador Cunningham, you have said that if there's going 
to be any negotiation between the Taliban and the Afghans that 
the Afghans will need a legitimate political authority to have 
that discussion.
    So perhaps you could apprise us as to the status of 
elections in Afghanistan and what we, Congress and the United 
States, can do to strengthen and secure democratic elections.
    Mr. Cunningham. Another problem with the way these 
discussions have been conducted up to now is that among other 
things, it created a series of rumors within Afghanistan about 
what the American attitude was toward elections and whether 
they would be held or not, and that created a lot of 
uncertainty, obviously.
    Now it looks like they will be held. They are scheduled. 
The apparatus is in place. They will be flawed, as they have 
been. I lived through the last elections. It was a most 
unpleasant experience. They will be flawed again.
    But they will be--I think they will be successful in 
establishing--reestablishing a legitimate political authority 
in Afghanistan as a result of the exercise of the voting 
franchise by the Afghan people.
    One thing we do know about Afghanistan is that Afghans like 
to vote even if it is dangerous for them to do so. I expect and 
hope that that would be the case again this time and I hope 
very much so that the election results will be clear enough 
that it will not lead to a series of protracted disputes as it 
did the last time around.
    Mr. Phillips. And is there anything that we or the 
international community can and should be doing proactively 
to----
    Mr. Cunningham. Provide political support and economic 
support to the actual negotiations themselves. Messaging the 
Afghan political class that they have a responsibility not to 
allow this to degenerate into a political conflict as it did 
before and providing encouragement for them that when they have 
a political outcome that it will be supported by the United 
States and our partners.
    Mr. Phillips. Thank you.
    And then a final question for each of you. I asked this of 
the last panel. I will repeat it. Dr. Ashley Tellis, senior 
fellow at the Carnegie Endowment for International Peace, said 
recently, ``Any attempt at reconciliation through a negotiated 
bargain centered on the formal exchange of obligations as 
opposed to the quiet and progressive defection of insurgents 
would fail to deliver stability that the U.S. seeks.''
    So on the subject of defection of insurgents, I would love 
your thoughts, respectively, on strategies that we should be 
considering to inspire that--the defection of the insurgents 
that we are battling.
    Anyone who wants to start. Ms. Miller.
    Ms. Miller. There have been a number of strategies that 
have been implemented over the years aimed at that, aimed at 
trying to split the Taliban or encourage defections.
    They are all--almost entirely failures, and I do not expect 
that there are any strategy that can succeed in that.
    There is a lot of talk about the fractures in the Taliban, 
lack of cohesion within the Taliban. A lot of that is, frankly, 
wishful thinking and propaganda.
    Yes, there are--I am not saying they are an entirely 
monolithic organization. But let's face it, they have remained 
more unified and more cohesive than the other side has in 
this--in this conflict and they have been very careful to 
protect their cohesion including through harsh measures of 
imposing ultimate sanctions on those who have sought to defect 
from the group because they have been cognizant of the fact 
that cohesion--sufficient cohesion has been their comparative 
advantage.
    So there is no quiet defection strategy to resolving this 
conflict.
    Mr. Phillips. Mr. Joscelyn.
    Mr. Joscelyn. I have a very grim view of the answer to your 
question. I think--I wrote last year that I think in terms of 
where this war is headed we have already lost the game all out, 
especially with President Trump's commitment to withdrawing 
troops.
    I think that he basically--I find it very hard to believe 
that there is going to be some turnaround now here militarily.
    My issue is that, going forward, and I agree totally and I 
have said this to myself publicly, if you're going to withdraw 
troops I have no reason to absolve the Taliban on the way out 
the door on counterterrorism issues.
    It does not make any sense to me, especially when you are 
not getting any sort of real firm commitments that they are 
going to actually sit down for real talks with the Afghan 
government or anything along those lines.
    But I do not think there is a turnaround strategy at this 
point. There is no silver bullet, unfortunately.
    Mr. Phillips. OK. Ambassador.
    Mr. Cunningham. I agree. I do not think there is a strategy 
of attrition or withdrawal that will work in any timeframe that 
we would want to see, certainly.
    That attrition will take place over time, hopefully in the 
context of a political agreement that does establish 
protections and rights and obligations.
    And there are serious issues that need to be addressed like 
the status of the Afghan constitution and the role of women and 
other things that we have been talking about that have--
education--all those things that have made today's Afghanistan 
so different from what it was 18, 19, 20 years ago.
    Those things need to be built into a fabric that provides a 
solution. It cannot be kind of left to drift along. That will 
not happen, in my opinion.
    Mr. Phillips. And one final question--just a yes or no from 
each of you. Is it--in your estimation, starting with you, Mr. 
Ambassador, do you think that the Taliban would be willing to 
agree to just about anything that would ultimately lead to the 
withdrawal of our troops, anticipating that we would be 
hesitant to ever return?
    Mr. Cunningham. Whether they would be willing to agree to 
almost anything I doubt. But they certainly have an incentive 
to--depending on, again, the crucial question what the time 
line is.
    They want us out. They will be willing to do what is 
necessary to get us out. The question is will that be at the 
end of a peace agreement or before there is a peace agreement.
    One thing I think can count on is that they will not have 
any compunction about taking advantage of a situation in which 
we are not there and the Afghans are weak.
    Mr. Phillips. Ms. Miller.
    Ms. Miller. They have their red lines and they--regardless 
of anything that President Trump or President Obama said about 
desiring to get out of Afghanistan, they know for a certainty 
that America will not be in Afghanistan forever and they will.
    Mr. Phillips. Mm-hmm. I will say.
    Mr. Joscelyn.
    Mr. Joscelyn. I do not think they would agree to say or do 
anything. But, basically, the point of my testimony is that if 
you are going to believe them on counterterrorism assurances, I 
have given you five different things that you have to look for 
in terms of any sort of agreement in that regard.
    Obviously, the agreement looks moribund right now. But with 
officials saying that they believe in the Taliban's 
counterterrorism assurances, I say, OK--well, then show me the 
following.
    Mr. Phillips. Very good. Thank you all for being here, for 
your testimony and counsel. Appreciate it.
    I yield back.
    Mr. Keating. Well, thank you. Thank you for being here.
    This is an extremely important issue. It does not receive 
perhaps the greatest public attention that it deserves.
    I echo the sentiments that some of my colleagues said--we 
should have had better representation. Not that you are not 
great but people that are directly involved in the negotiations 
currently here informing us and the American public what goes 
on.
    We should do that for the families and friends of loved 
ones that lost their lives, both on the military side and 
civilian side, in this long, long war.
    We should do that for the military and civilian and their 
families and loved ones that are currently there in that 
region.
    And as I conclude, I think of one story. When I was there a 
few years ago visiting our troops and getting briefed, I often 
asked our military--brave military soldiers--if there is 
anything we can--I can ever do or we can do for you, let us 
know, and on this occasion they asked us, yes, there is. There 
is someone we would like you to meet and thank.
    And they took us to the marketplace and there we met a 
civilian from Afghanistan. I will not mention even what 
province, although I suspect he is not alive at this point. But 
he had been risking his life providing information to our 
troops about where IEDs were placed, about other tactics where 
undoubtedly he was saving lives.
    And they had asked us and myself to just go to this man and 
thank him--that it would mean a lot. And when I had that 
opportunity I asked him why he was risking his life doing that, 
and at that point he went from behind him and pulled out his 8-
year-old son, and he said, because I would love him to have a 
chance in life--a chance he does not have under the current 
conditions and I hope that this intervention--this action by 
America will give him that chance.
    So I hope that we do the most in these negotiations, as 
difficult as they are, not just for those who have sacrificed 
so much and continue to for our country, but for those people 
as well.
    With that thought, I will call the hearing and adjourn.
    Thank you.
    [Whereupon, at 1:05 p.m., the committee was adjourned.]

                                APPENDIX

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

            STATEMENTS FOR THE RECORD FROM COMMITTEE MEMBERS

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

             ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
